<html>
<title> - BUILDING A PARTNERSHIP STRATEGY: IMPROVING INFORMATION SHARING WITH STATE AND LOCAL LAW ENFORCEMENT AND THE PRIVATE SECTOR</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                    BUILDING A PARTNERSHIP STRATEGY:
                   IMPROVING INFORMATION SHARING WITH
         STATE AND LOCAL LAW ENFORCEMENT AND THE PRIVATE SECTOR

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON INTELLIGENCE,
                        INFORMATION SHARING, AND
                       TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 25, 2007

                               __________

                           Serial No. 110-42

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                   U.S. GOVERNMENT PRINTING OFFICE
48-917 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                     JANE HARMAN, California, Chair

NORMAN D. DICKS, Washington          DAVID G. REICHERT, Washington
JAMES R. LANGEVIN, Rhode Island      CHRISTOPHER SHAYS, Connecticut
CHRISTOPHER P. CARNEY, Pennsylvania  CHARLES W. DENT, Pennsylvania
ED PERLMUTTER, Colorado              PETER T. KING, New York (Ex 
BENNIE G. THOMPSON, Mississippi (Ex  Officio)
Officio)

                 Thomas M. Finan, Director and Counsel

                        Brandon Declet, Counsel

                   Natalie Nixon, Deputy Chief Clerk

        Deron McElroy, Minority Senior Professional Staff Member

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Jane Harman, a Representative in Congress From the 
  State of California, and Chair, Subcommittee on Intelligence, 
  Information Sharing, and Terrorism Risk Assessment.............     1
The Honorable David G. Reichert, a Representative in Congress 
  From the State of Washington, and Ranking Member, Subcommittee 
  on Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     1
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    29

                               Witnesses
                                Panel I

Chief John R. Batiste, Washington State Patrol:
  Oral Statement.................................................    23
  Prepared Statement.............................................    24
Chief R. Gil Kerlikowske, Seattle Police Department:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Major General Timothy J. Lowenberg, Washington Military 
  Department:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. John McKay, Former U.S. Attorney:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20

                                Panel II

Mr. Richard E. Hovel, Aviation Security Advisor, The Boeing 
  Company:
  Oral Statement.................................................    33
  Prepared Statement.............................................    35
Mr. Matt Morrison, Executive Director, Pacific North West 
  Economic Region:
  Oral Statement.................................................    36
  Prepared Statement.............................................    38
Mr. Steve L. Stein, Senior Program Manager, Pacific Northwest 
  National Laboratory:
  Oral Statement.................................................    48
  Prepared Statement.............................................    50
Mr. Richard H. Stevenson, President and COO Clise Properties, 
  Inc.:
  Oral Statement.................................................    51
  Prepared Statement.............................................    53


  BUILDING A PARTNERSHIP STRATEGY: IMPROVING INFORMATION SHARING WITH 
         STATE AND LOCAL LAW ENFORCEMENT AND THE PRIVATE SECTOR

                              ----------                              


                          Friday, May 25, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Intelligence, Information Sharing,
                             and Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:06 p.m., at 
Bellevue City Council Chambers, 450 110th Avenue NE, Bellevue, 
Washington, Hon. Jane Harman presiding.
    Members present: Representatives Harman, Dicks and 
Reichert.
    Ms. Harman. The subcommittee will come to order.
    The subcommittee is meeting today to receive testimony on 
improving information sharing with state and local--law 
enforcement and the private sector, and before we begin I would 
like to yield to our ranking member, Dave Reichert, for a 
matter of personal business.
    Mr. Reichert. Thank you, Madam Chair.
    I just want to take a moment. I think we would, all of us 
here, as community members, be remiss if we didn't just take a 
moment to recognize the passing of our good friend Norm Maleng, 
so if we could just--I'm not going to make a long speech. We 
all know how much he meant to each and every one of us in this 
room, how much he meant to all of us in this community, but if 
we could just take a moment, Madam Chair, a moment of silence 
in honor of Norm's service and also maybe a personal and 
private prayer for their family and for their peace and 
strength.
    Thank you.
    [Moment of silence.]
    Mr. Reichert. Thank you, Madam Chair.
    Ms. Harman. Thank you.
    Thank you both for inviting me to this beautiful city and 
this beautiful location on a sunny day.
    I have been to Seattle many times, never in sunshine, so I 
think having this hearing is a good omen.
    Less than a week ago, 11 time zones away, I was in Baghdad 
and Ramadi, Iraq. It's a tough place to visit. I'm sure some of 
you have been there.
    One thing I came away with is that al-Qa'ida is very real 
in Iraq, but I also know from other travels that al-Qa'ida is 
real and growing around the world.
    This is just one of the major threats that could come our 
way.
    I also know that about 150 miles from here at the Canadian 
border in 2000 a man named Ahmed Rasam was apprehended due to 
the good work of a customs agent.
    Ahmed Rasam was driving a car with a trunk full of 
fertilizer, and the bomb, that he was going to put together, 
was intended to blow up at Los Angeles International Airport.
    That gets my attention since my congressional district 
surrounds Los Angeles International Airport, and LAX is the 
airport target in America that has been identified several 
times by al-Qa'ida as a place that it would like to hit.
    So it brings home to us how real are threats against us.
    I'm just talking about terrorism threats. There are also--
obviously most of us who come from California know about the 
natural threats.
    Some say the four seasons of California are fire, floods, 
earthquakes, and riots, but nonetheless, all of us understand 
vividly how dangerous our world is.
    This hearing explores the failure of the federal government 
to share critical terrorism-related information with those who 
need it most, and they're sitting right in front of us, our 
first responders in state and local law enforcement and their 
private sector partners.
    Just last fall our staff concluded a random survey of 
police and sheriff's officers across the country to find out 
what was really going on with information sharing.
    One sheriff in North Dakota when asked why we weren't 
making faster progress had a stunning answer. ``I hate to say 
it,'' he said, ``but 9/11 memories are fading. We simply 
haven't bled enough to get where we need to be.''
    Well, I think we shouldn't have to wait for more Americans 
to be hurt or killed before we get it right.
    This subcommittee, on a bipartisan basis, has been focusing 
on ways to fix how the federal government shares information 
not only horizontally with its federal partners but vertically 
with those of you on the front lines.
    No one has a monopoly on how to do information sharing, and 
Washington DC definitely doesn't have all the answers.
    I think the greatest hope and most measurable progress is 
to be found at the state and local levels, and that is why, at 
the invitation of two capable members sitting to my right and 
left, we are here in Washington state.
    Slowly but surely cities like Seattle, Bellevue, Los 
Angeles, and others are making real progress in standing up 
intelligence fusion centers and relaying to the federal 
government their information needs.
    In the view of this subcommittee, we need to make state, 
local, and tribal sector information needs the driver of 
federal information sharing efforts not the other way around.
    You're the ones who need to identify the information you 
need, and then that needs to go up the chain, and the federal 
government, your client, needs to respond to you.
    That was the message in the Homeland Security Committee's 
law enforcement assistance and partnership or LEAP strategy 
last fall, which some of you are going to address in your 
testimony.
    Law enforcement officers know that to prevent and disrupt a 
potential attack, they must be full participants in the 
intelligence cycle, and as some of you pointed out in your 
testimony, that's the goal, preventing and disrupting not 
responding.
    I am particularly interested in hearing from our witnesses 
about two ideas in the LEAP strategy, first the creation of a 
national center for intelligence-led policing. In my view 
creating such a center makes good sense and will allow locals 
to learn about the intelligence process as well as the 
protection of privacy, civil rights, and civil liberties of the 
people they serve.
    Second, the deployment of state and local law enforcement 
officers to the national counterterrorism center, the NCTC, to 
work side by side with intelligence analysts.
    You may know, and I'm sure the witnesses know, that 
Congress has passed, in both Houses, a so-called 9/11 bill to 
implement those recommendations of the 9/11 commission that we 
have not yet enacted into law.
    The Senate and House bills are different, and so a 
preconference is going out to try to reach agreement and then 
pass a final version of the bill, which would go to the 
President.
    The 9/11 bill is--at least the House version of it, and 
we're being effective in persuading the Senate to agree to 
this, would require the NCTC to include state, local, and 
tribal law enforcement officers. We've come to that point of 
view since it's not happening voluntarily, so we're thinking 
we're going to put a requirement in the law if it doesn't 
happen before that law is enacted.
    The third point I want to make, final point, is that the 
private sector owns or controls at least 85 percent of this 
country's critical infrastructure.
    Our second panel will include private sector witnesses.
    The private sector too needs information that will help 
inform decisions about how to protect against terrorism.
    The newly created national infrastructure advisory council 
is a positive step forward in addressing private sector 
concerns about securing facilities. However, the council's 
recommendations don't appear to be gaining much traction on 
Capitol Hill.
    Local law enforcement agencies like the Seattle police 
department, on the other hand, have begun to share information 
with the private sector very successfully, another example of 
leadership at the local level.
    As I mentioned, I was pleased to be invited, but I'm also 
pleased to join my colleagues, Ranking Member Sheriff Dave 
Reichert and committee member, Appropriations Committee 
cardinal, Norm Dicks.
    I'm in between a sheriff and a cardinal. It's quite a 
religious experience.
    I'm very pleased also to have read about the progress that 
Washington state is making.
    You may not know that 35 years ago, when we were each 5 
years old, Norm and I worked together in the United States 
Senate. He worked for Senator Magnuson, and I worked for 
California Senator John Tunney.
    We worked there together, although we are from the same 
political party, at a time when toxic partisanship was not in 
Washington. It was a better time, but the good news is that 
Dave and I work together very well, and this subcommittee works 
on a bipartisan basis.
    I haven't--our legislative projects and our hearings have 
been totally bipartisan, and as far as I'm concerned, that's 
the way you get the job done, so I'm very pleased to be here 
with Norm and Dave, the cardinal and the sheriff--maybe a play 
could be written--and at this point would like to recognize two 
people in our audience and introduce our first panel.
    First the mayor of Bellevue--I think he's still here--Grant 
Degginger is here, and the Interim Police Chief Linda Pillo is 
here.
    If you want to get the job done right, put a woman in 
charge, right?
    So let me tell you that I'm very excited about our 
witnesses today, and we'll introduce the first panel, and then 
you will each testify or summarize your testimony in five 
minutes.
    Ms. Harman. Yes, I forgot about Dave Reichert giving his--
thank you. Everyone has been pulling at me, and I couldn't 
figure out what I had said wrong about the mayor.
    Let me first yield to the ranking member for an opening 
statement.
    Mr. Reichert. Thank you, Madam Chair.
    The hesitancy is that she knows once I get the microphone, 
I continue to talk and talk and talk.
    I've learned that's what you do in DC is that you grab the 
microphone and never stop, right, Norm?
    Mr. Dicks. Five minute rule in the House.
    Mr. Reichert. So for those of you--and they really go by 
the five-minute rule.
    For those of you who haven't experienced a federal hearing 
before--I know that the panel has--it's quite an experience 
back in Washington DC, and it's kind of a formal experience, 
but usually the members of the committee, we get to pontificate 
for a while, and then we get to hear the witnesses and their 
testimony, and we get to ask questions.
    Part of the reason we do that is we want to learn as much 
as we can, and we go back and build good legislation, and, as 
Jane said, we really have been a committee that has worked well 
together.
    We are a committee that is really focused on protecting 
this country and protecting our citizens and protecting our 
community and doing away with that bipartisanship--or that 
partisanship that you see back in Washington DC, so you'll see 
this committee really focused on that.
    Again, thank you, Madam Chair, and welcome to Washington 
state, and Norm and I are, of course, good friends, and thanks 
for coming up from the south end today, Norm, and welcome to 
the 8th District.
    I'm just going to read a prepared statement very quickly.
    I would like to welcome, again, the Chairwoman here for 
this hearing, glad that you were able to make it and thank you 
for coming to Seattle.
    We are all here because we agree that having information 
flow to and from our first responders is paramount in 
preventing a future terrorist attack.
    However, information sharing is a two-way street. It needs 
to happen in a partnership based on trust and mutual 
understanding.
    That is the purpose of this hearing today, to better 
understand how information--information sharing, how those 
needs are being met and how these relationships can be 
improved.
    Unlike many other major cities across the nation, Seattle 
is located in close proximity to an international border.
    It's home to a number of internationally recognized 
businesses and combined with the Port of Tacoma has the third 
largest port as well as the largest ferry system in the nation.
    Our region is not new to the threat of terrorism.
    Ahmed Rasam is a reminder to us of that threat posed by the 
border, and the challenges we will face in the upcoming 2010 
Vancouver Olympics is real.
    Collaboration between federal, state, and local entities is 
key.
    It is clear that in Seattle information sharing has 
improved dramatically since September 11th, and I was fortunate 
to be a part of those efforts in the beginning and working with 
everyone represented today on this panel as their partner in 
law enforcement here.
    I know from past experience that increased collaboration 
between the federal government and local law enforcement needs 
to improve more though. We have a lot more work to do.
    The private sector as well should be involved. They should 
be helping us to create a better understanding of potential 
threats to the Seattle area, and though--and through those 
partnerships being developed at the Washington joint analytical 
center, the WAJAC, and FBI, information is flowing directly to 
those first preventers capable of increasing our level of 
protection, but it is also clear there is room for improvement.
    One of the issues I hear about time and time again is 
ensuring that the federal funding can be used for analysts in 
fusion centers, and I know that that's something the chief will 
touch on today.
    The Department of Homeland Security recently allowed state 
and local entities to use grant funding for analysts, but we 
are looking to strengthen this law.
    While the feds have focused their efforts on improving the 
security in the nation's most critical infrastructures, it is 
also essential that the federal government focus on forging new 
partnerships and improving information sharing, whether these 
networks be human or cyber.
    It is essential that these partnerships and networks 
include the private sector, especially since private sector 
owns and operates 85 percent of U.S. critical infrastructure.
    Part of the difficulty of the information sharing with the 
private sector is that the private sector companies are often 
reluctant to share information with the federal government. 
They fear exposure to lawsuits and the loss of competitive 
advantage.
    Given the track record from the Department of Homeland 
Security protecting information, they are rightly worried.
    That is why as part the Department of Homeland Security 
Authorization Act that passed the House earlier this month, I 
included a provision to study incentives for the private sector 
for information sharing.
    If a company takes a risk in sharing sensitive data, it is 
essential that potential benefits outweigh possible costs.
    Having some sort of incentives in place could help increase 
the flow of critical information.
    I would like to thank all of our witnesses for being here 
today and for participating in these two panels, and with that, 
Madam Chair, I yield.
    Ms. Harman. Thank you, very much Congressman Reichert.
    Ms. Harman. Congressman Dicks had the opportunity in his 
home state to make an opening comment but has chosen to waive, 
and so I know we'll hear from him shortly.
    Mr. Dicks. I would like to hear from the witnesses.
    Ms. Harman. There you go.
    Our first witness, Major General Timothy Lowenberg is the 
Adjutant General of Washington state where he guides the 
preparation of Washington Army and Air National Guard citizen 
soldiers and airmen to respond in times of state and national 
emergency.
    Major General Lowenberg is responsible for formulating, 
developing, and coordinating all policies, plans, and programs 
affecting the Army National Guard.
    He also serves as chair of the national governors 
association, homeland security advisors council, and is 
extremely well known nationally, and it is a pleasure to have 
you as our witness, sir.
    Our second witness, Gil Kerlikowske, is the chief of police 
for the City of Seattle, a position he has held since August of 
2000.
    During his 35 years in law enforcement, the chief has 
served in many distinguished capacities, including as the 
deputy director of the community-oriented policing services, 
COPS, at the Department of Justice, the police commissioner in 
Buffalo, New York, and as a patrol officer in St. Petersburg, 
Florida, and I do know that you're close friends of the chief 
and the sheriff in Los Angeles.
    Again, it's a pleasure to see you.
    Our third witness, David McKay--
    Mr. Dicks. John McKay.
    Ms. Harman. John McKay, thank you.
    I'm sorry, I had it down wrong in this transcript.
    John McKay was, until recently, the U.S. Attorney for 
western Washington. He was nominated by President Bush to serve 
as U.S. Attorney on September 19, 2001, and the United States 
Senate confirmed his nomination several weeks later.
    From 1989 to 1990 Mr. McKay served as a White House fellow 
where he worked as special assistant to the director of the 
federal Bureau of Investigation in Washington.
    I know you also, as I recall, were president of the legal 
services corporation in Washington in the late 1990s, a very 
important assignment, I believe, and you are presently visiting 
professor at the Seattle University school of law.
    Our fourth witness, John Batiste, is the chief of 
Washington state patrol, the largest public safety and law 
enforcement agency in the state.
    Chief Batiste oversees the day-to-day management of the 
agency's six bureaus: Field operations bureau, fire protection 
bureau, forensic laboratory services bureau, investigative 
services, management services, and technical services.
    Without objection, each of your full statements will be 
inserted in the record, and I would ask you each to summarize 
your statement in five minutes, and I can't see, but is there a 
timer--over there, so for those--why don't you focus it toward 
the people who are testifying first, and we're starting with 
Major General Lowenberg.

  STATEMENT OF MAJOR GENERAL TIMOTHY J. LOWENBERG, WASHINGTON 
                      MILITARY DEPARTMENT

    General Lowenberg. Thank you, Madam Chair and members of 
the committee. It's a pleasure to be a member of this 
distinguished panel with my friends and colleagues with whom 
I've worked so long and so well.
    As noted, I am testifying today as a state official but 
also as chair of the national governors association of homeland 
security advisors council.
    In fact, I had a national teleconference at 11:00 local to 
review my testimony with my colleagues from all of the states, 
and I also appear today as chair of homeland defense and 
homeland security for the adjutant generals association of the 
United States.
    Let me begin by stating an obvious but critical ground 
truth acknowledged by the chairwoman, and that is that we are a 
nation at war, a nation whose communities for the first time in 
our nation's history are part of the global battle space, and 
the intent of our adversaries is very clear.
    The ``Blind Sheik'' when he was sentenced for a life term 
of imprisonment for the 1993 bombings of the World Trade Tower 
said, and I quote, ``God will make America disappear from the 
surface of the earth as He has made the Soviet Union 
disappear.''
    With a lot of great leadership and unity of effort, we have 
done a number of things to make us safer today than we were 
when we were attacked in 2001, but we are far from safe.
    The 9/11 commission did a laudable job of addressing the 
spectrum of threats related to al-Qa'ida and what they referred 
to as ideological movements, but I believe it's also important 
that we address the spectrum of home-grown terrorism, to that I 
would add specifically the growing phenomenon of prison 
radicalization in U.S. prisons, principally in our state prison 
systems, and these and other domestic threats can only be dealt 
with by leveraging the vastly superior numbers and ``boots on 
the ground'' contacts or our local law enforcement and 
officials in the private sector as well.
    The homeland security advisory council released a report in 
December of 2004 that went well beyond the 9/11 commission's 
reports in focusing on the criticality of incorporating these 
state, tribal, and local intelligence-gathering, intelligence-
fusion, and information sharing capabilities, and focused on 
the need for a truly national as opposed to a federal system of 
intelligence and information sharing.
    The LEAP strategy mentioned by the chairwoman I think goes 
a long way, provides an excellent road map for a true 
enterprise strategy that would enhance and improve our nation's 
domestic security.
    I know that Chief Kerlikowske is going to comment on the 
national center for intelligence-led policing and some of the 
other specification provisions, so I'm not going to spend my 
limited time doing that, other than to acknowledge that the 
kinds of activities that support or many times presage domestic 
terrorist events can best be discerned, interdicted, and 
prevented when there is a seamless local, tribal, state, and 
federal intelligence network.
    The ground truth is that state intelligence centers have 
been established almost solely as a result of the initiative 
and the perseverance of local jurisdictions and states.
    There's been tremendous pushback from the very inception.
    We were told initially that it wasn't part of the national 
strategy when then Governor Mitt Romney led the Homeland 
Security's advisory council's effort on intelligence and 
information sharing and released their report.
    It took us more than a year to get that report through the 
advisory council, simply to acknowledge the efficacy of state 
and local intelligence fusion centers.
    Once we got that in the fiscal year 2005 grant guidance, we 
were told that we could hire up to two contract planners to 
assist the state efforts, but we weren't given the guidelines 
to enable us to do what we really needed to do, and that was 
begin to develop a cadre of analysts.
    Beginning in fiscal year 2006 we've been authorized to hire 
analysts but only with grant money limited to the two-year 
program cycle of the grant, and so as we look at how we fund 
these efforts at the state and local level, we are restricted 
to part-time contract employees.
    It does not allow us to build a cadre of professional 
analysts so necessary for national security.
    By the way, Madam Chair, you mentioned the NCTC, and we 
need state and local representation on the NCTC, the national 
counterterrorism center, that goes beyond one or two fellowship 
status prisons.
    What we really need is a regime in which state and local 
analysts rotate through the NCTC and federal analysts rotate 
into the field, so that over a period of time we begin to 
develop crosspollination personal and professional 
relationships where fusion center analysts at the various 
echelons truly have a keen appreciation and understanding of 
the requirements at the other echelons.
    What jeopardizes the operations of state and local 
intelligence fusion centers in Washington and every other state 
is the lack of predictable and sustainable federal funding.
    We believe, and when I say ``we,'' the Homeland Security 
advisors for the several states and territories, believes that 
a multiyear POM cycle for Homeland Security budgeting, much 
like we do for the Department of Defense budgeting, is long 
overdue and would help lay the groundwork for strategic and 
long-term homeland security planning at all levels of 
government.
    We also believe fervently that the restrictions of DHS 
information bulletin 235, which limit funding support for its 
contract intelligence analysts to the two-year performance 
period, is really not driven by any Congressional authorization 
or appropriation language and is policy that is off the mark.
    If it's not revised, it should be revised by Congress.
    Finally, a national as opposed to a federal intelligence 
center communications architecture needs to be developed and 
funded, tying together intelligence centers within the states, 
within intrastate and interstate regions and nationally.
    Targeted support from Congress that would allow us to 
develop this information-operations-sharing database and 
information system will go a long way to making our country 
more secure.
    Thank you, Madam Chair, for the opportunity to appear 
before you, and I look forward to your questioning.
    Ms. Harman. Thank you, General, and I will just point out 
to you that the legislative fix we have in mind in the 9/11 
bill for the NCTC is exactly what you described, so hopefully 
we will get that very soon.
    General Lowenberg. That will be very welcome.
    [The statement of General Lowenberg follows:]

         Prepared Statement of Major General Timothy Lowenberg

    Good afternoon, Mr. Chairman and distinguished members of the 
Committee. For the record, I am Major General Tim Lowenberg, Adjutant 
General of the State of Washington. I am also Chair of the National 
Governors Association (NGA) Homeland Security Advisors Council and 
Chair of Homeland Defense and Homeland Security for the Adjutants 
General Association of the United States (AGAUS). In addition to my 
Army and Air National Guard command responsibilities, state law 
designates the Adjutant General as the state's senior emergency 
management official and vests in me the responsibility to ``administer 
the comprehensive emergency management program of the state of 
Washington (RCW 38.52.005).
    I wish to emphasize that although I am a federally recognized and 
U.S. Senate-confirmed Air Force general officer, I appear before you 
today solely in my capacity as a state official.

                        We are a Nation at War!

    We are a nation at war! That is the ``ground truth'' that must 
drive all of our data collection, information sharing and intelligence 
fusion and risk assessment actions.
    We have been under attack since al-Qa'ida operatives prevailed in a 
decade-long battle against one of the world's two acknowledged ``Super 
Powers'' in Afghanistan. Having watched the Soviet Union implode and 
literally cease to exist within two (2) years of the conclusion of that 
bloody conflict in 1989, al-Qa'ida began systematically attacking 
United States interests at home and abroad. The ongoing conflict has 
already lasted longer than America's involvement in World War II--with 
no end in sight. More than three thousand U.S. residents perished in 
the September 11, 2001 attack. Today, all American communities, large 
and small, are part of a new and frighteningly lethal 21st Century 
global battle space.
    Our adversaries' intentions--and commitment--are manifestly clear. 
At his sentencing for masterminding the 1993 bombing of the World Trade 
Towers, Sheik Omar Abdul Rahman (the ``Blind Sheik'') declared: ``God 
will make America disappear from the surface of the earth, as He has 
made the Soviet Union disappear!''

                    We Are Safer Today--But Not Safe

    As the Governor's Homeland Security Advisor and Chair of the NGA 
Homeland Security Advisors Council, I am often asked if we are safer 
today than we were on September 11, 200l. In other words, are we safer 
today than when we were last attacked?
    The principal studies and statutory materials I rely upon in 
responding to this question include the 9/11 Commission Report; the 
Homeland Security Act of 2002; the Intelligence Reform and Terrorism 
Prevention Act of 2004; the December 2004 Homeland Security Advisory 
Council Intelligence and Information Sharing Initiative chaired by 
then-Governor Mitt Romney; and the 2006 Law Enforcement Assistance and 
Partnership Strategy. The 9/11 Commission Report reminds us that 
``Since 9/11, the United States and its allies have killed or captured 
a majority of al-Qa'ida's leadership; toppled the Taliban, which gave 
al-Qa'ida sanctuary in Afghanistan; and severely damaged the 
organization. Yet terrorist attacks continue. Even as we have thwarted 
attacks, nearly everyone expects they will come. How can this be? The 
problem is that al-Qa'ida represents an ideological movement, not a 
finite group of people. It initiates and inspires, even if it no longer 
directs. --Because of the offensive actions against al-Qa'ida since 9/
11, and defensive actions to improve homeland security, we believe we 
are safer today. But we are not safe.''
    I concur with this analysis. To the obvious threats posed by al-
Qa'ida's ``ideological movement'', I would add the dangers of home-
grown terrorism to include the growing and disturbing phenomenon of 
U.S. prison radicalization. These domestic threats can only be dealt 
with by leveraging the vastly superior numbers and ``boots on the 
ground'' contacts of state and local law enforcement officials.
    To improve domestic security, the 9/11 Commission stressed the 
importance of unity of effort within the intelligence and information 
sharing community and urged, among many recommendations, targeted 
intelligence initiatives to create (1) a national counter-terrorism 
center to unify strategic intelligence and operational planning; (2) a 
national intelligence director to unify the intelligence community; (3) 
increased congressional oversight; and (4) establishment of a 
specialized and integrated national security unit within the FBI.
    Subsequent to the 9/11 Commission report, the Homeland Security 
Advisory Council released a report in December 2004 that focused 
specifically on the nation's intelligence and information sharing 
requirements and went even further in recommending:
        <bullet> Effective prevention efforts must be information-
        driven and risk-based.
        <bullet> Federal, state, tribal and local authorities must work 
        together with the private sector to assess threat, 
        vulnerability, risk and consequence.
        <bullet> State, tribal, local and private entities are now 
        ``consumers'' of accurate, timely and actionable intelligence.
        <bullet> The federal government needs to develop a reliable and 
        organized conduit for providing information to state, tribes, 
        and localities.
        <bullet> The federal government should emphasize providing 
        current and actionable unclassified information.
        <bullet> The collectors of intelligence; state, tribal and 
        local entities are now partners with the federal intelligence 
        community. *
        <bullet> The federal government should take steps to ensure 
        domestic intelligence/information activities are carried out in 
        a consistent fashion.
        <bullet> State, tribal and local governments need to collect, 
        analyze, disseminate and use intelligence and information as 
        part of their day-to-day operations. *
        <bullet> DHS should gather and share best practices.
        <bullet> Statewide intelligence/information fusion centers 
        should be an important part of national intelligence/
        information sharing efforts. *
        <bullet> Each state should establish an information center that 
        serves as a 24/7 ``all-source,'' multi-disciplinary, 
        information fusion center. *
                * (emphasis added)
    Two years after release of the Homeland Security Advisory Council 
report, the House Committee on Homeland Security proffered additional 
and more precisely focused recommendations in its Law Enforcement 
Assistance and Partnership (LEAP) Strategy. I applaud the House 
Committee's analysis and concur with many of the LEAP Strategy 
recommendations including establishing a national center for 
intelligence-led policing; establishing a law-enforcement presence 
overseas; creating intelligence fusion centers at or near our borders; 
supporting grant programs to assist local law enforcement education and 
teaming; enhancing vertical information sharing between levels of law 
enforcement; assuring timely accessible security clearances for law 
enforcement; and continual surveying efforts to provide feedback on 
intelligence system effectiveness. If authorized and funded, these 
initiatives would enhance unity of effort and fundamentally improve our 
nation's domestic security.
    To date, however, most of the attention and funding for these and 
other initiatives have been focused at the federal level. While 
continuously improving federal interagency operations, we must also be 
mindful that terrorist attacks and criminal activities that support 
terrorist activities occur in local communities and local citizens are 
the primary victims. Unless and until the federal government also 
supports and funds a national strategy of state and local counter-
terrorism capacity building, homeland security will continue to be an 
illusive goal.

                      Federal-Centric First Steps

    In 2003 the Terrorism Threat Integration Center (TTIC) was formed 
to provide a comprehensive assessment of potential terrorist threats to 
U.S. interests. The TTIC included the Department of Homeland Security, 
the FBI's Counterterrorism Division, the Central Intelligence Agency's 
Counterterrorist Center, the Department of Defense and other U.S. 
Government agencies. The Intelligence Reform and Terrorism Prevention 
Act of 2004 renamed the TTIC the National Counterterrorism Center 
(NCTC) and placed it under the control of the United States Director of 
National Intelligence (DNI). The NCTC vision statement calls for it to 
serve as the nation's center of excellence for counterterrorism and to 
eliminate the threat of terrorism through integrated, dedicated and 
disciplined strategic operational planning and counterterrorism 
intelligence. One of its stated objectives is to operate as a 
partnership of organizations including: the Central Intelligence 
Agency; the Department of Justice/Federal Bureau of Investigation; the 
Departments of State, Defense, and Homeland Security; and other 
entities that provide unique expertise such as the Departments of 
Energy, Treasury, Agriculture, Transportation, and Health and Human 
Services; the Nuclear Regulatory Commission; and the US Capitol Hill 
Police.
    While this vision, purpose, and strategy are prudent and highly 
important, I mention the creation of the TTIC and NCTC as an 
illustration of the federal-centric nature of many of our initial 
homeland security initiatives. Without diminishing the importance of 
these and other federal government actions, they must be part of a 
larger enterprise strategy of federal-state-tribal-local capacity 
building, especially in the areas of intelligence fusion and 
information sharing. As DHS moves forward with efforts to create 
uniform information sharing guidelines, it is imperative that they have 
a better understanding of state operations and how state, tribal and 
local operations can enhance our overall national intelligence system. 
State intelligence fusion centers have had to be built almost 
exclusively through state and local perseverance, not as a result of 
any federal encouragement or federally-supported national strategy. 
Even after release of the Homeland Security Advisory Council's 
Intelligence and Information Sharing Initiative report touting the 
national security benefits of state-tribal-local intelligence fusion 
centers, financial support from DHS and OMB was not forthcoming. Only 
after a substantial number of states established such centers and 
others were clearly in the process of doing the same did DHS and OMB 
belatedly begin providing limited funding support for these state and 
local operations.
    With American communities at the heart of the new 21st Century 
battle space, we cannot afford to ``manage'' the consequences of future 
terrorist attacks. We must be able to detect, deter, intercept and 
prevent such attacks from occurring. That can only be done through the 
systematic gathering, assessment, distillation and dissemination of 
actionable intelligence. The LEAP report accurately notes that 
intelligence analysis has heretofore been the near-exclusive domain of 
the federal government and that we have been slow to recognize that 
local, state, and tribal law enforcement professionals, if properly 
resourced, are our nation's true ``eyes and ears'' and can 
substantially enhance our nation's security.
    When planes were flown into buildings on September 11, 2001 it was 
the brave men and women of local police and fire departments who 
heroically responded. That same sense of urgency and commitment exists 
today in our state, tribal and local intelligence fusion centers.

       --Enhancing State and Local Intelligence Fusion Capacity--

   Creating a ``National'' Intelligence System that Makes our Nation 
                                 Safer!

                 Capitalizing on an All-Crimes Approach

    To develop a broader intelligence sharing system, additional 
information, that is to say information other than that which has a 
clear nexus to terrorism, must be considered. To that end, the LEAP 
report observed:
    Everyday, police and sheriffs' officers collect millions of pieces 
of information during the course of their work--the kind of information 
that, if properly analyzed and integrated, can form the basis of highly 
informative law enforcement intelligence reports. That is what 
``intelligence-led policing'' or ILP is all about.
    Another proponent of ILP, Michael Downing, Commander of the Los 
Angeles Police Department's Counter-Terrorism/Criminal Intelligence 
Bureau, has opined:
    The success and understanding of community based policing 
philosophies and community based government practice [has] set the 
stage for local, state, and federal law enforcement partners to 
construct the building blocks for shared and fused intelligence that 
will prevent, deter, disrupt, and interdict planned terrorist acts 
targeting America. This intelligence model of policing should be robust 
enough to incorporate an ``all-crimes, all-hazards'' approach, 
resisting terrorism as well as crime and disorder.
    The state of Washington has firmly embraced an all-crimes approach 
to the collection, analysis and dissemination of intelligence 
information. The State's fusion center, known as the Washington Joint 
Analytical Center or WAJAC, regularly dispenses actionable intelligence 
and Be-On-the-Look Out (BOLO) information related to terrorism as well 
as a variety of topics including missing children, stalking suspects, 
counter-drug and narcotics interdiction missions, auto-theft rings, and 
organized gangs.
    This kind of information can only become fully actionable when 
state, tribal and local fusion centers are linked together by 
consistent communications architecture within states and throughout the 
nation. A national--as opposed to a federal--intelligence center 
information operations (IO) strategy would facilitate the horizontal 
and vertical sharing of ``real time'' classified and law enforcement 
sensitive information.
    We should also leverage the skills and capabilities of trained and 
experienced analysts and subject matter experts from our state prison 
systems and from non-law enforcement disciplines such as the Army and 
Air National Guard and Public Health.

        The Need for Predictable and Sustainable Federal Funding

    Above all else, however, what jeopardizes the operations of state 
and local intelligence fusion centers in Washington and all other 
states is the lack of predictable and sustainable funding. Current 
federal grant guidelines (Information Bulletin--IB235) authorize 
funding support for intelligence analysts for only the 2 year 
performance period of the fiscal year 2006 UASI and LETPP programs.
    Fiscal Year 2006 Grant Guidance (pages 33-34, 83, 89):
    ``Furthermore, costs associated with hiring new intelligence 
analysts are allowable only for the period of performance of the fiscal 
year 2006 UASI and LETPP programs. Upon close-out of the fiscal year 
2006 grants, States and Urban Areas shall be responsible for supporting 
the sustainment costs for those intelligence analysts.''
    Fiscal year 2007 HSGP Grant Guidance (pages 26 and B-1):
    ``Costs associated with hiring new intelligence analysts are 
allowable for only two years, after which States and Urban Areas shall 
be responsible for supporting the sustainment costs for those 
intelligence analysts.''
    Although there are no references to intelligence analysts in the 
congressional appropriation bills, the Department of Homeland Security, 
as a matter of discretion and policy, has issued IB235 which tracks 
both grant guidelines and applies the two year limitation to both 
years' funding. These limitations, coupled with the overall uncertainty 
and unpredictability of federal grant funding, create continuous staff 
turnover and prevent state and local fusion centers from developing a 
cadre of experienced career analysts. The federal government wouldn't 
think of contracting out its Intelligence functions, yet the DHS policy 
essentially forces state and territorial governments to rely upon 
contract personnel hired for only a 2-year grant performance period. 
States are predictably unable to recruit and retain skilled personnel 
when federal grant guidelines accommodate only short-term, 
``temporary'' contractor assistance.

 Synchronizing State and Federal Information Sharing and Intelligence 
                                Analysis

    Washington State's proximity to the Canadian land border, coupled 
with our proximity to Puget Sound and the Pacific Ocean, provide ample 
air, land and maritime routes of illegal entry for those who would do 
us harm. These geographic vulnerabilities substantially increase the 
risk of a terrorist attack especially when viewed against the backdrop 
of the world ``stage'' that will be presented to terrorist cells by 
events such as the 2009 World Police and Fire Games and the 2010 Winter 
Olympics and Paralympics. Many of these events will be held in and near 
Vancouver, British Columbia at venues within 35 miles of Washington 
State communities. If domestic or transnational terrorists were to plot 
an attack in conjunction with these international events, it is likely 
that pre-operation planning and surveillance will be conducted from 
within the state of Washington. Given al-Qa'ida's modus operandi, such 
planning might even be occurring in our region today.
    Developing a closer, more disciplined information sharing 
relationship between local, state, and tribal law enforcement and 
Customs and Border Patrol (CBP), Immigration and Customs Enforcement 
(ICE) and other federal agency colleagues would substantially enhance 
our collective situational awareness. In this regard, I concur with the 
LEAP report's observation that ``in order to better secure the 
homeland, the Department [of Homeland Security] must partner more 
effectively with state, local, and tribal law enforcement agencies in 
our nation's border communities--the `force multipliers' at our own 
frontiers.''
    David Carter, Professor and Director of Michigan State University's 
School of Criminal Justice, noted in the LEAP report:
    The borders of the U.S. are replete with small state, local, and 
tribal law enforcement agencies. Officers in those agencies know the 
people in their communities and the character of life on the border and 
readily recognize when there are anomalies. Yet, they rarely report 
this information and even more rarely are asked. This is valuable data 
that may often times help fusion center analysts and the federal 
Intelligence Community complete the threat puzzle.
    Fortunately, Washington State has benefited from a close 
relationship with our federal border partners. Specifically, Thomas 
Hardy, Director of Field Operations for the Seattle CBP Field Office, 
and his staff have been invaluable collaborators, particularly as we 
have worked together on preparing for the 2010 Winter Olympics.
    Washington's local police agencies have also benefited from a high 
level of collaboration with our federal agency partners. In the LEAP 
report, Ferry County (WA) Sheriff Peter Warner emphasized:
        We rely on Border Patrol agents in my jurisdiction for 
        information about what's going on at the border, and I know 
        them personally. We frankly need more Border Patrol agents--and 
        more resources to hire additional police and sheriffs' 
        officers--in order to meet the threat of terrorism at the 
        border.
    I concur with Sheriff Warner and encourage the members of this 
Committee and your fellow members of Congress to appropriate funding 
for additional human and technological resources at the federal and at 
state and local levels--with special and targeted support for state and 
local intelligence fusion center operations--to help ensure the air, 
land and maritime routes of access to our country are secure.

Conclusion
    We are a nation at war. We are confronted by daunting and 
unprecedented domestic security risks. Our ability to detect, deter, 
dissuade and prevent future terrorist attacks is directly tied to our 
ability to analyze all-crimes intelligence in adequately funded and 
staffed state and local intelligence fusion centers and in collectively 
sharing that information between and among members of the local-tribal-
state-federal intelligence community. A federal-centric intelligence 
system will not allow us to meet the threats now confronting our nation 
nor will it enable us to effectively respond to or recover from future 
terrorist attacks. Our homeland will be secure only when members of 
local, tribal, state and federal law enforcement communities and other 
emergency responders have the information and resources they need on a 
daily basis to make sound decisions about transnational and domestic 
terrorist threats.
    Thank you for the opportunity to appear before you today. I look 
forward to your questions.

    Ms. Harman. Chief Kerlikowske, please summarize your 
testimony in five minutes.

    STATEMENT OF R. GIL KERLIKOWSKE, CHIEF, SEATTLE POLICE 
                           DEPARTMENT

    Chief Kerlikowske. Thank you, Committee Chair Harman and 
Congressman Dicks, Congressman Reichert. Thanks very much for 
inviting me to share observations with you on the very 
important topic of information sharing between the public and 
private sectors as it relates to homeland security.
    I'm going to sketch for you the state of intelligence 
fusion and homeland security from the vantage point of a local 
police chief, and I want to address the following two areas: 
The nature of the current obstacles to the creation of an 
integrated system of intelligence fusion, including private 
sector participation; and some proposed solutions for removing 
those impediments and improving the information sharing, in 
particular some of the promising initiatives contained in the 
LEAP report which myself and my colleagues have been very 
impressed with.
    The essential concept of intelligence fusion, which is in 
several different national guidelines, fusion center 
guidelines, et cetera, involves the systematic collection, 
analysis, and dissemination of information through an inclusive 
process, involving the full engagement of all of the key 
stakeholders, and without the participation of the private 
sector, which as you mentioned, Madam Chair, holds, manages and 
controls over 85 percent of the critical information 
infrastructure in the nation, it is hard to contemplate that we 
are going to be able to achieve that objective.
    Realization of such private/public partnership is 
predicated upon though having a system upon which we are going 
to all participate, and this is the dilemma that vexes my 
colleagues and the major city chiefs, that is the organization 
of the 56 largest police and sheriff's departments in the 
United States and Canada and where I currently serve as vice 
president.
    We consider increased engagement of participation by the 
private sector in homeland security to be among one of our 
highest priorities.
    Unfortunately, our individual ability to collect and create 
intelligence fusion centers has been limited, at best.
    Two of the major impediments: First, we remain tethered to 
the federally centered vision of intelligence information based 
on the Cold War ``bottom up'' type of system. Security 
clearances are difficult and time-consuming procedures for 
obtaining access to equipment, are convoluted and unnecessary, 
and the sharing of vast categories of information is prohibited 
unless it is brokered by DOJ or DHS.
    Second, the restrictions on the use of funds to support 
homeland security, which the General mentioned and I believe 
Chief Batiste will mention also, the potential solutions are 
contained in the LEAP report.
    One is, of course, what you had mentioned earlier, the 
proposal to establish a center for intelligence-led policing.
    We are doing this, as the sheriff or Congressman Reichert 
knows, across the country and looking at best practices in 
collaborating and working together.
    Having this federally located system and funded system 
would go a long way to that.
    The foreign liaison officer against terrorism program--you 
have great acronyms, by the way, for this. Very well done.
    Ms. Harman. Give our staff the credit.
    Chief Kerlikowske. The FLOAT program--what an ability in 
this global issue to be able to have local law enforcement 
understand and obtain knowledge in foreign countries, something 
that we could not, unless you are New York City, afford to do, 
the proposal to reform and streamline the process for obtaining 
security clearances.
    In Seattle we have a convergence of the circumstances that 
have created the ideal environment for information sharing, and 
that is some of the things that we can accomplish in the city, 
and I very much appreciate the support that we've had from our 
own local members.
    Right after 9/11 we were able to reach out to the Muslim 
community and through a joint letter signed by, at that time, 
United States Attorney John McKay and myself, we notified every 
police agency in the state of Washington how they could be 
helpful in reducing fear and increasing cooperation and 
communication in those communities.
    We participated in TOPOFF, the first federally centered 
exercise against terrorism after 9/11.
    Under John McKay's leadership, the Puget Sound region was 
the first to operationalize Linx, the law enforcement system 
for data coordination, and we have been working very hard at a 
regional fusion center in conjunction with our state fusion 
center, WAJAC.
    Our areas of interest converged and create substantial 
opportunities for expanded collaboration. No one knows the 
strengths and vulnerabilities of these critical facilities 
better than the locals do.
    What I suggest is that we seek the kind of enduring 
dependable relationship we have in Seattle with leaders like Al 
Clise and Richard Stevenson of Clise Properties. That is a 
foundation of trust and cooperation and relationships that make 
sure that we are going to protect the critical infrastructure 
in the private sector to the very best of our ability.
    Thank you.
    Ms. Harman. Thank you very much, Chief.
    [The statement of Chief Kerlikowske follows:]

             Prepared Statement of Chief R. Gil Kerlikowske

    Committee Chair Harmon, Congressman Dicks and Congressman Reichert, 
thank you for inviting me to share my observations with you on the 
important topic of information sharing between the public and private 
sectors as it relates to homeland security.
    To address the central question of this hearing--How do we build a 
partnership between the public and private sectors to share information 
relevant to homeland security?--requires an analysis, first, of the 
status of homeland security intelligence efforts and systems to date. 
This is because we cannot share information and intelligence that we 
don't have. Moreover, it would be premature to undertake an expansion 
of information sharing if the infrastructure of intelligence fusion is 
inadequate or incomplete.
    In the brief time I have today, then, I will attempt to sketch for 
you the state of intelligence fusion in support of homeland security, 
from the vantage point of a local police chief, by addressing the 
following:
        <bullet> the nature of current obstacles to the creation of 
        integrated systems of intelligence fusion, including private 
        sector participation; and
        <bullet> proposed solutions for removing these impediments and 
        improving the information sharing environment, in particular, 
        some of the promising initiatives contained in the ``Law 
        Enforcement Assistance and Partnership Strategy'', or LEAP 
        report.
    I will conclude my testimony with some observations aimed at 
reinforcing the importance of public private partnerships, and why I am 
optimistic that we will achieve success to meet that priority.

Obstacles to creating integrated intelligence fusion.
    The essential concept of intelligence fusion--as defined by DHS in 
both National Criminal Justice Information Sharing Plan (NCISP) and the 
NIJ-Global Justice Initiative ``Fusion Center Guidelines'' document 
they adopted--involves the systematic collection, analysis and 
dissemination of information through an inclusive process, involving 
the full engagement of all relevant stakeholders. Without the 
participation of the private sector, which holds, manages and controls 
over 85% of the critical information infrastructure of the nation, it 
is hard to contemplate achievement of this objective.
    Realization of such a private/public sector partnership, however, 
is predicated upon having a system or process within which to 
participate. This is the dilemma which has vexed my colleagues in the 
Major City Chiefs organization, which comprises the 56 largest 
metropolitan police agencies in the US and Canada, and where I 
currently serve as vice-president. We consider the increased engagement 
and participation by the private sector in homeland security to be 
among our highest priorities. Unfortunately, our individual and 
collective progress to create intelligence fusion systems or centers 
that have the capacity to integrate private sector participation has 
been limited, at best.
    Two major impediments have contributed to this reality:
    First, we remain tethered to the federally centered vision of 
intelligence information management. Developed during the Cold War, 
this vision remains stubbornly resistant to change. For all the stated 
commitment to derive intelligence requirements and priorities from the 
``bottom up''--which I interpret to mean from the front lines of local 
law enforcement--many decisions still originate from somewhere inside 
the beltway, and specifically within DHS and the FBI. This reality 
finds confirmation in many ways. Security clearances are difficult for 
many in law enforcement to obtain in a timely fashion.
        <bullet> Procedures for obtaining access, equipment or support 
        are often convoluted, tortuous and unnecessary.
        <bullet> The sharing of vast categories of information is 
        prohibited unless brokered by the FBI, in particular as relates 
        to foreign counter-intelligence. (As a police chief of the 19th 
        largest city in the nation, and in possession of a top secret 
        clearance, by law I cannot set foot unescorted in the NCTC, let 
        alone have direct access to even the most benign information)
        <bullet> And while there are some noteworthy and commendable 
        fusion centers and systems around the country (I am thinking 
        here of Los Angeles-Los Angeles County, Arizona and 
        Massachusetts, to name a few), the vast majority of 
        intelligence management remains centered in the traditional 
        JTTF-FIG structure, almost six years after 9/11.
    Second, the restrictions on the use of funds to support homeland 
security initiatives virtually assure that our progress will be 
limited. In particular, the UASI prohibitions concerning the hiring of 
sworn law enforcement personnel contradict an order of priority that 
every chief of police knows by heart: It is people who solve crimes and 
prevent terrorism, not buildings and equipment.
    Potential solutions for improving the information-sharing 
environment.
    My purpose in making the above observations is not to itemize 
grievances, but rather to join with you in finding solutions. Just as 
it is fair to say that many of us in the local law enforcement 
community have been frustrated by certain unnecessary, and sometimes 
mysterious, impediments to our progress relating to homeland security, 
it is equally fair to say that we have come a long way since 9/11, and 
that the nation is, on balance, safer and more prepared than we have 
been in the past. And we are all keenly interested in continuing the 
progress that we have jointly achieved. This brings me to comment on 
certain of the promising initiatives contained in the LEAP report. 
Specifically, I wish to lend my voice in support of the following 
initiatives outlined in this laudable, strategic document:
    First, the proposal to establish a ``center'' for intelligence-led 
policing. This, to me, makes a lot of sense. From my vantage, there 
does not appear to be sufficient attention paid to creating a unified 
approach to the overall concept of intelligence-driven policing on an 
all-crimes basis, nor is there sufficient focus upon the strategic or 
civil liberties implications of police deployment based upon actionable 
information. The opportunity to evaluate successful models and develop 
standards and guidelines on a national level would meet a great need. 
This being said, the concept of a national center must be more than 
just about building another big box, of course, and must be designed 
based upon the concepts I discussed earlier. Fundamentally, the full 
participation of local law enforcement is critical to the success of 
such an initiative. Perhaps there would be a place in such a center or 
system for the private sector, as well.
    Second, the ``Foreign Liaison Officers Against Terrorism (FLOAT) 
Grant Program'' would go a long way toward expanding both the knowledge 
base and the preparedness capacity of local, state and tribal law 
enforcement. In a real sense, a program of this kind directly confronts 
the preclusion of local law enforcement involvement in the categories 
of intelligence that I spoke of earlier. This program would open the 
eyes of local law enforcement to understanding this issue and create a 
knowledge base around terrorism and international crime that is 
presently lacking. Remember that most police agencies have trouble 
talking to their next-door neighbors, let alone communicating across 
international borders. This is an extremely worthwhile component of 
LEAP.
    Third, the proposal to establish and fund a ``Vertical Intelligence 
Terrorism Analysis Link (VITAL)'' is directly on point to confront the 
current restrictions on local law enforcement access to relevant 
foreign intelligence data. This proposal strikes an appropriate middle 
ground between the integration of local law enforcement in foreign 
counterintelligence missions--which, except in extreme cases, I do not 
advocate--and allowing appropriate access to information that links to 
threats directed at the communities we police. Like the FLOAT program, 
this proposal is based upon a mature recognition that for 99% of the 
populous, their homeland is not inside the beltway, but is instead the 
city, town or unincorporated county where they reside; and their 
homeland defenders are the local police officers and sheriff's deputies 
who live and work in those same cities and towns.
    Fourth, the proposal to reform and streamline the process of 
obtaining security clearances will find few--if any--detractors among 
law enforcement executives. Both the goal of the initiative and 
recognition of the priority of this need are long overdue.
    There are many other laudable proposals described in the LEAP 
strategy document, including the need to strengthen border intelligence 
capacity through the creation of a specific focus on US border 
intelligence fusion, and I do not want my failure to mention them to 
suggest a lack of support.
    In my time remaining, though, I want to return to the issue of 
creating greater opportunities for public-private information sharing.
    As I stated earlier, the need to understand the challenges that 
inhere in our commitment to create systems of intelligence fusion is a 
prerequisite to any meaningful discussion of public-private information 
sharing. I have spent some time describing both the limitations and 
promising alternatives to the current picture of intelligence fusion 
confronting local law enforcement, for the reason that meaningful 
partnerships are founded upon meaningful systems that provide timely 
and relevant information. In other words, we must build a strong house 
if we intend to invite our private sector partners to share floor 
space. With that, I turn how to the issue of creating greater 
opportunities for public-private information sharing.
    When I consider the current status of intelligence sharing between 
local law enforcement and the private sector, I must first observe that 
the quality and frequency of the exchange of information remains more a 
matter of personal relationships and individual initiatives than a 
well-organized, reliable system of intelligence fusion that includes 
private sector representatives as full partners. As happens frequently 
in this profession, whom we know and have worked with in the past 
defines the boundaries of engagement, particularly as concerns 
sensitive or classified information. And while public-private 
partnerships remain a priority in the design and implementation of 
intelligence fusion, there remain few examples of the kind of fully-
integrated, systematic collaboration with the private sector that state 
and local public safety leaders acknowledge as a vital component of 
comprehensive intelligence management. The need for this cooperation is 
evidenced in the Pulitzer Prize winning book, Looming Tower.
    This is not to suggest that the model of personal, relationship-
based engagement and collaboration cannot meet our objectives for 
intelligence sharing in the short term. At the local level, 
relationships between police and community have been a force 
multiplier, and have been shown in many cases to prevent or reduce 
crime. In a real sense, it is precisely these relationships which make 
a system of public-private collaboration even possible.
    In Seattle, for example, we have a convergence of both 
circumstances and initiatives that create an ideal environment for 
information sharing. Our business, minority and neighborhood 
communities have a long and proud tradition of civic participation and 
contribution. Almost twenty years ago, the Seattle Police Department 
established a structure of precinct level advisory councils, which were 
so successful that they were expanded to include specific councils 
representing communities of color, sexual minorities, private security 
companies and human service providers.
    Some examples of how this information environment has been of value 
in the context of homeland security are, as follows:
        <bullet> Immediately after 9/11, our outreach to the local 
        Muslim community addressed practical fears and concerns, and at 
        the same time showed the world that humanity has many diverse 
        faces and beliefs.
        <bullet> The City elected to participate in TOPOFF 2, the first 
        national terrorism exercise after 9/11, which created new 
        partnerships and brought many diverse people and interests 
        together in a real time exercise to test our preparedness.
        <bullet> We were able to create a Seattle Police Foundation, 
        comprised of many of the city's most important and civic-minded 
        business and community leaders.
        <bullet> Under the leadership and commendable commitment of US 
        Attorney John McKay, the Puget Sound region was the first to 
        operationalize the ``LinX'' (Law Enforcement Information 
        Exchange) data coordination system.
        <bullet> And we are in the process of designing and 
        implementing a regional fusion center which seeks to integrate, 
        to the greatest extent possible, private sector participation.
    The City of Seattle and the Puget Sound region--like many 
communities across the nation--has the capacity to transform our time-
tested, profound personal relationships within the private sector into 
a system and structure of regular information sharing. So in thinking 
about the potential for public-private intelligence sharing, I believe 
it is not so much a matter of will as a matter of structure and design, 
and of overcoming impediments that frustrate our shared commitment to 
collaborate. The real key to this transformation, however, consists of 
law enforcement consciously and purposefully broadening its engagement 
with the private sector, much in the same way we have asked DHS to 
expand the scope of their engagement and partnership with local law 
enforcement.
    One area where our interests converge and create substantial 
opportunities for expanded collaboration is in the analysis of critical 
infrastructure. No one knows the strengths and vulnerabilities of the 
critical facilities we seek to protect better than their owners and 
staff. Another is in the area of integrated communications, to include 
the possibility of interoperability.
    What I suggest we seek is the kind of enduring, dependable 
relationship we in Seattle have with leaders like Al Clise and Richard 
Stevenson of Clise Properties. You will hear testimony today from 
Richard about how our longstanding professional friendship has been the 
basis for sharing information about critical infrastructure strengths 
and vulnerabilities, and has enhanced the capabilities of both the 
Seattle Police Department and Clise Properties to prevent, detect and 
respond to threats to those private sector holdings. For obvious 
reasons, neither Richard nor the Seattle Police Department will 
disclose any details about this instance of collaboration. The point is 
that these types of candid, inclusive partnerships are eminently 
possible. They are founded upon trust, confidence, and mutual respect. 
They can, and should be, the rule, rather than the exception.
    While much work remains, not the least of which involves further 
development of the infrastructure of intelligence fusion at the local, 
state and tribal level, it is clear that the potential for public and 
private sector collaboration and information sharing is significant. 
We've seen it in Seattle. It is possible in every community in this 
nation. And it is on this note of optimism that I will close and take 
any questions you may have.

    Ms. Harman. Mr. McKay.

         STATEMENT OF JOHN McKAY, FORMER U.S. ATTORNEY

    Mr. McKay. Chair, thank you very much. I appreciate the 
opportunity to be here as a former United States attorney and a 
lowly law professor at Seattle University Law School. I thank 
you very much.
    I apologize for being late. I don't know if Madam Chair is 
aware that we lost a real leader last night, Norm Maleng, and 
Norm was a close friend of mine and I know of many others here, 
and we will miss him tremendously, a national leader in 
deterrent sentencing and programs constructed toward violence 
against women, many other tremendous services over his 30 years 
as the elected prosecutor here, and I will miss him terribly.
    I wanted to talk for a moment about the role of the federal 
government in building regional law enforcement sharing 
systems, and I think we need to distinguish for a moment 
between fusion centers, which are important because they bring 
persons together, and bringing the data together, the records 
together that contain information of crimes.
    I think that most law enforcement recognize that while 
intelligence is incredibly valuable in the war on terror, it 
may be more important to know what each other knows about crime 
in our region, and amazingly we today, in most places in the 
United States, do not routinely share law enforcement records 
with each other.
    In a world in which we can go online and Google information 
from all over the world, law enforcement is not capable today, 
in most places, of finding out what federal agencies, state 
agencies, and local agencies know about individuals who have 
been arrested or convicted of crimes; in particular, relating 
to investigative records which contain full text information 
about crimes that have occurred and which could be the basis 
for criminal conspiracies or even terrorist conspiracies.
    Madam Chair, we do not do a good job of creating those 
regional systems.
    The individuals on this panel are among some of the very 
best leaders in law enforcement in the United States, I 
believe, in creating the governance behind the first Linx 
system which was operational here in the state of Washington 
and to include the gentleman to your right, Congressman 
Reichert, our sheriff here in King County who along with the 
individuals on this panel with me, including General Lowenberg, 
have been tremendously helpful in creating the governance 
necessary to establish a system in which federal, state, and 
local records reside.
    It sounds easy. The public thinks we have it. We do not 
have this capability, other than a very few places around the 
United States.
    I've set some of those out in my prepared remarks and won't 
repeat them here.
    I do believe that the federal government has an incredibly 
important role, and it begins with acknowledging what the Chair 
has said and what Congressman Reichert has said, and that is 
that local knowledge about crime and local data concerning past 
crimes and current investigations are in many ways more 
important than information that the federal government brings 
to the table.
    Yet, it is not possible among the more than 200 law 
enforcement agencies in the state of Washington, for example, 
to ask each of them to create a piece of a system that will 
result in that Google capability that we really do seek.
    That means the federal government has to assist in funding. 
It has to assist in providing the forum for the government 
structure that will bring those many different police 
organizations together, all with different civilian supervision 
at the local, state, and federal level.
    That's what the Linx system is, and I'm not here to sell 
Linx. Linx is owned by the government. It's owned by the 
Department of Defense.
    Some have really maliciously said that Linx is somehow a 
proprietary system. It isn't.
    The key elements of Linx are the ability to search 
databases that are under the control and supervised by civilian 
authorities over law enforcement, and I'm very proud of what 
has been created here.
    I'm also terribly disappointed in the Department of Justice 
in not pursuing the pilot programs that Linx has so 
successfully launched in a number of places around the country, 
and I would ask really this subcommittee to consider this 
question.
    I don't believe that anyone in the federal government is 
responsible for building these systems. We propose an 
interdepartmental partnership with the United States attorneys 
between Homeland Security, the Department of Defense, and the 
Department of Justice.
    We believe we had an arrangement to do that. It has not 
occurred, and I believe that is why when you peel aside the 
rhetoric and all the nice words, very little law enforcement 
information sharing is occurring among state, federal, and 
local partners.
    Partnership is the key. We built trust here. We know it can 
be done, and I'm certainly looking forward to taking any 
questions that you may have.
    Ms. Harman. Thank you very much.
    [The statement of Mr. McKay follows:]

                    Prepared Statement of John McKay

    Good afternoon Madam Chair and members of the Homeland Security 
Subcommittee on Intelligence, Information Sharing and Terrorism Risk 
Assessment. I am John McKay, the former United States Attorney for the 
Western District of Washington. I am currently Visiting Professor of 
Law, Seattle University School of Law. I am pleased to appear before 
you to present information regarding ``Building a Partnership Strategy: 
Improving Information Sharing with Local and State Law Enforcement and 
the Private Sector''.
    It has been my distinct pleasure to serve the citizens of the State 
of Washington and the Department of Justice as the United States 
Attorney for the Western District of Washington from 2001 to 2007, when 
I resigned along with a number of my colleagues from around the 
country. I was honored to serve with professional men and women in the 
United States Attorney's Office in Seattle and Tacoma, and with the 
many extraordinary professional law enforcement personnel from the 
various local, county, state, tribal and federal law enforcement 
agencies throughout the State of Washington and around the United 
States.
    One of my most rewarding experiences while serving as the U.S. 
Attorney was to help lead the development of an extremely effective law 
enforcement information sharing effort known as the Law Enforcement 
Information Exchange (LInX). I first became involved in the development 
of a program to enhance information sharing among law enforcement 
agencies following the tragic events of September 11, 2001. It soon 
became apparent after that fateful day that an extraordinary effort 
would be required to improve information sharing among law enforcement 
agencies at all governmental levels if we were to be successful in 
mitigating another devastating terrorist attack on our homeland. As the 
U.S. Attorney in Seattle, I sought to facilitate the development of an 
effective information sharing strategy among scores of law enforcement 
agencies to both mitigate another terrorist attack, and effectively 
combat rising organized crime in my district.
    In early 2002, I was invited to attend a pilot program sponsored by 
the FBI in St. Louis, Missouri. This program, knows as the Gateway 
initiative, was an effort by the FBI to demonstrate that local, county, 
state and federal law enforcement agencies could effectively break down 
the cultural barriers and obstacles to information sharing, and develop 
a cost effective technology among their disparate information 
management systems. During the demonstration of this program, I met 
with Executive Assistant Director Dale Watson of the FBI, Director 
David Brant of the U.S. Naval Criminal Investigative Service, and a 
variety of other U.S. Attorneys to discuss a strategy to expand the 
Gateway initiative outside of the St. Louis area.
    The Puget Sound area of Washington State serves as a vital homeport 
to the strategic resources of the United States Navy. We have nuclear 
powered aircraft carriers, ballistic missile submarines and a large 
civilian and military workforce which are strategic assets in the 
defense of our country in the Pacific, and which have played a vital 
role in our military response in both Afghanistan and Iraq. The U.S. 
Naval Criminal Investigative Service is responsible to provide felony 
criminal investigative, counterintelligence and counterterrorism 
support to the Department of the Navy, and to the strategic assets in 
the Western District of Washington. Following my positive impression of 
the FBI Gateway Program, I approached Director Mueller and Director 
Brant to consider a law enforcement information sharing pilot program 
in my district to enhance our law enforcement and counterterrorism 
strategies.
    The Naval Criminal Investigative Service (NCIS) eagerly accepted my 
request, and then Director Brant devoted resources to develop what has 
come to be known as the LInX program. This is more than a technology 
project; it is in fact a law enforcement and counterterrorism 
operational capability. The LInX effort in Seattle began with the 
effective organization of senior law enforcement executives, to include 
Chiefs of Police, Sheriffs and Special Agents-in-Charge from thirteen 
critical agencies. NCIS provided the funding to develop the technology 
to permit the electronic sharing of law enforcement records, to include 
criminal incident data, traffic summons, computer assisted display 
(CAD) data, criminal arrest histories and other law enforcement records 
that are legally retained and shareable by and among these law 
enforcement agencies. NCIS also provided resources to assist me in 
formally organizing the leadership of these law enforcement agencies 
who actually owned and were responsible for the collection of this 
data. We formed a LInX Board of Governance, which was comprised of this 
executive level leadership of local, county, state and federal 
agencies. My office provided direct legal oversight of this program to 
ensure that all federal guidelines, to include the Federal Privacy Act 
was complied with in the development of this program.
    The NCIS simultaneously initiated LInX Programs in other 
geographical areas vitally important to the Department of the Navy, and 
sought to enhance their criminal investigative and force protection 
support to the Navy through the enhancement of information sharing with 
regional law enforcement agencies. NCIS developed LInX projects in the 
Hampton Roads area of Virginia, the Gulf Coast of Texas, Hawaii, 
Northeast Florida and Southeast Georgia, the National Capital Region of 
Washington, DC and in New Mexico. In each of these regions, the local 
United States Attorney was personally involved in the oversight and 
participation of the LInX project. From 2003-2006 we expanded the 
Northwest LInX project to include more than one hundred fifty (150) 
agencies throughout the State of Washington, and most recently to 
include the Portland, Oregon Police Bureau, which includes seventeen 
local and county agencies. I believe in total, the LInX Program, now 
deployed to seven regions throughout the United States, has developed 
an effective law enforcement information sharing effort with more than 
350 agencies.
    Throughout my involvement with the LInX Program, I had the 
opportunity to meet frequently with leaders in Washington, DC, to 
include the Secretary of the Navy, the Deputy Secretary of Defense, the 
Deputy Attorney General of the United States and the Deputy Secretary 
of Homeland Security. In partnership with the Director of NCIS, I 
offered that LInX has fostered an extremely harmonious environment 
among law enforcement leaders in the Northwest, bringing them together 
to plot a strategy for effective information sharing. We successfully 
overcame those artificial barriers between agencies, which had become a 
part of the law enforcement culture prior to the events of September 
11, 2001. More importantly, with the direction of these law enforcement 
leaders and their operational personnel, NCIS developed a technical 
solution for the sharing of electronic data that directly led to law 
enforcement successes in my District. I received reports from virtually 
all agencies involved in this effort that their personnel had solved 
criminal investigations that previously would not have been solved, or 
would have required extensive resources to pursue.
    The LInX Program allowed each participating agency's law 
enforcement personnel to search and retrieve law enforcement records of 
other jurisdictions within the State of Washington. In addition, the 
Department of Justice joined the LInX Program in Washington, by 
developing a linkage to the DOJ Regional Data Exchange (R-DEX) program, 
which is an effort to share information between FBI, DEA, AFT, USMS and 
BOP. For the first time in the profession of law enforcement, 
detectives from Seattle to Spokane were able to share criminal files 
with each other, and they were able to query the DOJ criminal 
investigative components, and determine if any of those agencies had a 
file of interest to the local agencies.
    Unique to the LInX system is the ability to conduct a comprehensive 
search of law enforcement records, retrieve both structure data and 
full text investigative narratives, to literally connect the dots to a 
crime. Most important to me from a strategic standpoint, was the 
ability of LInX to offer insight into crime committed at the local 
level, which could be a precursor to a future terrorist attack, or a 
terrorist support network. These are the dots that could not be 
connected prior to 9/11. We have developed a system, and a regional 
organizational structure of law enforcement leaders, which, if 
implemented on a national scale, could likely prevent the next 
terrorist attack on our country. Law enforcement information sharing 
should have the following characteristics:
        <bullet> The system should include all the legally shareable 
        data maintained in the record systems of each participating 
        agency. Access controls must be included to protect sensitive 
        information from widespread or premature dissemination.
        <bullet> The system must permit partners full access to the 
        relevant documents.
        <bullet> The system must provide a technical analytical 
        capability to ``connect the dots'', by linking all variables 
        associated with a subject and instantly providing a composite 
        picture for the investigator.
        <bullet> The system must meet the security standards of the 
        federal law enforcement agencies.
    I am convinced that the elements of the LInX program, and all of 
the standards that it embodies should be developed by the federal 
government on a national scale, building on the experience here and in 
the other NICIS funded pilots.
    Deputy Secretary of Defense Gordon England proposed to Deputy 
Attorney General Paul McNulty and Deputy Secretary of DHS Michael 
Jackson, that we develop an inter-departmental effort between DoD, DOJ 
and DHS to implement a LInX effort on a national scale. Secretary 
England believed that it was more appropriate for either DOJ or DHS to 
lead such an effort, but certainly offered the full support of his 
Department, and of his law enforcement component in NCIS. As then 
Chairman of the Attorney General's Advisory Committee on Information 
Sharing, I respectfully urged the Deputy Attorney General in a letter, 
co-signed by eighteen of my U.S. Attorney colleagues, to further expand 
LInX throughout the United States, under the auspices of each of the 
U.S. Attorneys who signed this letter. While the DOJ supported the 
efforts of the U.S. Attorney led LInX programs, it declined to take a 
leadership role in the further development of this vital capability.
    Instead the Justice Department has taken three distinct positions 
that seriously compromise law enforcement information sharing in the 
United States. First, DOJ has retreated from its earlier standard that 
all legally sharable data be included in LInX or similar programs, and 
has substituted a far lesser standard that gives great discretion to 
agencies in what will be shared. Second, DOJ has refused to mandate 
technical and security approaches for information sharing--leaving that 
to local discretion and thus ensuring that only non-sensitive data will 
be shared with local law enforcement. And third, DOJ has chosen not to 
assume responsibility for leading, directing, supporting, or funding 
any regional information sharing system, preferring to let local 
interests and the market place determine the ultimate configuration of 
a national system. In a December, 2006 Memorandum by Deputy Attorney 
General McNulty, the Department of Justice withdrew from the LInX 
pilots and halted meaningful record sharing with state and local law 
enforcement. This is a tragic and harmful step backwards in local, 
state and federal law enforcement and cooperative counter terrorism 
efforts and puts our country at greater risk of terrorism attacks.
    In spite of the failure of leadership at the senior level of DOJ, 
efforts have been made by DoD and NCIS to transition the LInX Program, 
which has been funded by DoD through FY'11, to the Department of 
Homeland Security. Former U.S. Attorney Debra Wong Yang of Los Angeles, 
working with Chief Bratton, Los Angeles Police Department, Sheriff 
Baca, Los Angeles Sheriff's Department, and Sheriff Carona, Orange 
County Sheriff's Department, is attempting to implement a LInX project 
in the Central District of California. USA Yang submitted a formal 
proposal for the development of this program to DOJ, and requested DOJ 
invest funding, and partner with DoD/NCIS to develop LInX, however, her 
request was denied by the DAG. The leadership of the Los Angeles law 
enforcement agencies subsequently petitioned DHS for funding.
    I am convinced that the standards of senior executive law 
enforcement leadership, a cost efficient technology, and a fervent 
commitment to share all legally shareable law enforcement records is 
the recipe for successful information sharing among our 18,000 law 
enforcement agencies in our country. This is an effort which must be 
led from the most senior ranks of government, and one which must meet 
the operational needs of our sworn law enforcement officers and 
analysts who are on the front line every day attempting to find the 
proverbial needle in the haystack that might lead them to a terrorist 
support network, or to quickly capture a serial pedophile, random 
rapist or violent criminal. Neither crime, criminals nor terrorists 
know any borders. In fact, they now know how to exploit our 
geographical borders and bureaucratic jurisdictions to their own 
advantage. We need a new weapon in our fight to preserve our freedoms, 
and I believe we may have found such a weapon in the deployment of the 
LInX program.
    Thank you for this opportunity to address you and this important 
subcommittee. I look forward to answering any questions you may have 
for me.

    Ms. Harman. Chief Batiste.

  STATEMENT OF JOHN R. BATISTE, CHIEF, WASHINGTON STATE PATROL

    Chief Batiste. Good afternoon, Madam Chair and members of 
this distinguished committee.
    Thank you for allowing me to be here to have this 
opportunity to showcase the Washington Joint Analytical Center.
    In 2002 local, state, and federal law enforcement agencies 
in Washington joined together to develop a new system of 
intelligence sharing.
    The key components of this system are the WAJAC, a 
centralized fusion center serving as a single point of 
intelligence collection, and the regional intelligence groups 
located throughout the state providing a link to a line of 
level personnel--to line level personnel and homeland security 
partners; the goal, of course, investigating crimes and 
preventing acts of terrorism.
    The true success of the fusion center can be measured by 
the long-term partnership developed since the inception of the 
statewide integrated intelligence plan.
    Situated in the same--on the same floor and in the same 
work area as the FBI's intelligence work group, the WAJAC 
employees share information real-time without the hindrance of 
communications barriers that have existed for decades and have 
only recently been breached.
    For this, we can thank the tremendous efforts of the 
Seattle field office, the FBI, the United States attorney's 
office under the leadership of John McKay, and many other 
federal and local law enforcement leaders.
    Within our fusion center, the King County sheriff's office, 
Bellevue police department, and the Washington state patrol 
detectives work hand in hand with numerous federal agencies in 
collection, analysis, and dissemination of intelligence 
information.
    A prime example of the trust developed between our agencies 
is demonstrated in the authority established within the WAJAC 
by the supervision of WSP sergeant--Washington State Patrol 
sergeant who has the ability to assign tasks to the field 
intelligence personnel owned by the FBI, and the field 
intelligence group supervisor having the same authority to task 
members of the WAJAC.
    In 2006 the WAJAC reviewed and disseminated over 2,000 
intelligence information reports, developed 323 leads to 
support criminal or terrorist case investigation and provide 
assistance to homeland security partners on 500 separate 
occasions.
    These numbers alone don't tell the story with regards to 
the exceptional work being done in this partnership.
    Every day investigators and analysts from many different 
jurisdictions throughout this state are communicating with each 
other at a frequency never realized before and are sharing 
critical information by way of the WAJAC.
    One of the primary information collection programs that has 
substantially served our intelligence--served our information 
sharing efforts is the Navy's law enforcement information 
exchange or the Linx system.
    The WAJAC and the marine analysts use this tool on a 
regular basis to assist them in locating persons of interest, 
establishing identities, and connecting the dots on criminal 
investigation.
    This tool has been invaluable throughout the state and has 
been an instrumental tool in solving a number of criminal 
cases.
    It's imperative with regards to information sharing 
environment that support for Linx that we hope will continue 
well into the future.
    Because Linx contains information only on closed criminal 
investigation, there still exists a need for a true 
intelligence database.
    At present, this state does not have the necessary 
resources to store and electronically share critical 
intelligence with all agencies.
    Many agencies continue to rely on e-mails, fax, and 
telephone conversations.
    The western state information network or WSIN is one of six 
federally funded regional information sharing system centers.
    WSIN is a force multiplied as it provides the network 
intelligence databases and also safety information services 
that law enforcement requires.
    WSIN serves the five western states, including the state of 
Washington. I, in fact, sit on the policy board.
    At our state's request, WSIN expanded its mission several 
years ago to include gangs and more recently all crimes 
including terrorism.
    Washington has taken the lead in providing access to major 
crime units, such as homicides, burglary, and intelligence 
units and police agencies, but more needs to be done.
    This is a proven concept and it should be fully funded 
rather than using federal dollars to develop additional similar 
intelligence systems.
    Even though we've had great successes in establishing 
partnerships and sharing information, Madam Chair and members 
of this committee, we still face significant hurdles.
    We need the ability to sustain these valuable programs.
    Dedicated and adequate funding for WAJAC, RIGs, and WSIN is 
the greatest of concerns to myself and our stakeholders.
    The three local law enforcement agencies and the National 
Guard who have assigned investigators to the WAJAC have done so 
on their own operational--by using their budget resources.
    Additionally, all 19 contracted analysts both in the WAJAC 
and the RIGs are funded through the law enforcement terrorism 
prevention program.
    In conclusion, we simply need your help.
    Ms. Harman. Thank you, Chief. We are all here to help.
    [The statement of Chief Batiste follows:]

              Prepared Statement of Chief John R. Basiste

    Good afternoon Mr. Chairman and distinguished members of the 
committee. Thank you for allowing me this opportunity to showcase the 
Washington Joint Analytical Center (WAJAC) and our state's efforts in 
sharing critical criminal intelligence information.
    In 2002, local, state, and federal law enforcement agencies in 
Washington joined together to develop a new system of intelligence 
sharing. The key components of this system are the WAJAC, a centralized 
fusion center serving as a single point of intelligence collection, and 
regional intelligence groups located throughout the state providing a 
link to line level personnel and homeland security partners. The goal: 
investigating crime to prevent acts of terrorism.
    The true success of the fusion center can be measured by the long-
term partnerships developed since the inception of the Statewide 
Integrated Intelligence Plan. Situated on the same floor and in the 
same work area as the FBI's Field Intelligence Group, WAJAC employees 
share information real-time without the hindrance of communications 
barriers that have existed for decades and have only recently been 
breached. For this, we can thank the tremendous efforts of the Seattle 
Field Office of the FBI, the United States Attorney's Office and many 
other federal and local law enforcement leaders. Within our fusion 
center, King County Sheriff, Bellevue Police and WSP detectives work 
hand-in-hand with numerous federal agencies in the collection, analysis 
and dissemination of intelligence information
    A prime example of the trust developed between our agencies is 
demonstrated by the authority of the WAJAC supervisor (a WSP Sergeant) 
to assign tasks to any of the FIG personnel and the FIG supervisor 
having the same tasking authority over WAJAC.
    In 2006, WAJAC reviewed and disseminated over 2,000 Intelligence 
Information Reports, developed 323 leads to support criminal or 
terrorism case investigations and provided assistance to homeland 
security partners on 500 separate occasions. These numbers alone don't 
tell the story of the exceptional work being done through this 
partnership. Every day investigators and analysts from many different 
jurisdictions throughout the state are communicating with each other at 
a frequency never realized before and are sharing critical intelligence 
information with the WAJAC.
    One of the primary information collection programs that has 
substantially served our intelligence sharing efforts is the Navy's Law 
Enforcement Information Exchange or LINX system. WAJAC and RIG analysts 
use this tool on a regular basis to assist them in locating persons of 
interest, in establishing identities and connecting the dots on 
criminal investigations. This tool has been invaluable throughout the 
state and has been instrumental in solving a number of criminal cases. 
It is imperative to our information sharing environment that support 
for LINX continues well into the future.
    Because LINX contains information only on closed criminal 
investigations, there still exists a need for a true intelligence 
database. At present, this state does not have a method to store and 
electronically share critical intelligence with multiple agencies. We 
continue to relay on e-mails, fax and telephone conversations. 
Currently, WAJAC and other stakeholders are evaluating a statewide 
intelligence database to supplement our current programs. In the near 
future, we will be requesting Department of Homeland Security grant 
funding to purchase and maintain a viable database for information 
sharing purposes.
    Even though we have had great successes in establishing 
partnerships and sharing information, we still face a significant 
hurdle in our ability to sustain this program. Dedicate funding for 
WAJAC and the RIGs is of the greatest concern to all stakeholders. The 
three local law enforcement agencies and National Guard who have 
assigned investigators to the WAJAC have done so out of their own 
operational budgets and have received no monetary compensation to 
backfill these talented specialists. Additionally, all nineteen 
contracted analysts both in the WAJAC and in the RIGs are funded 
through the Law Enforcement Terrorism Prevention Program Grant; funding 
we expect to diminish over time. Over the last three years, a 
significant portion of LETPP money granted to Washington State has been 
dedicated to funding the work completed by these contractors.
    Successful programs designed to counter criminal activity and 
terrorism require a human element. Software programs, databases and 
computers alone do not fight terrorism, people do, and without the 
talented investigators and analysts of the WAJAC, it would be near 
impossible to prevent or disrupt any act of terrorism. We must have an 
established funding source to sustain the WAJAC into the future.
    Another significant challenge we must overcome is our difficulty in 
staffing regional intelligence groups in all nine emergency management 
regions of the state. Within the rural areas of Washington, many law 
enforcement agencies do not have the resources available to provide 
full-time or in many cases even part-time investigative support for the 
intelligence process. Even though we have assigned grant-funded 
analysts to each region, without investigative support we are only 
meeting half of our commitment to this program. The solution to the 
problem may not be a simple one and with hope we will be able to 
further develop our RIGs to a point where they have the ability to 
deliver a viable service their region and the state.
    When the WASPC Intelligence Subcommittee began laying the 
foundation for WAJAC and the Statewide Integrated Intelligence Plan 
they came to the same realization that no one of is as strong as all of 
us and no single entity can make this program work alone. We have 
combined our limited resources, worked collaboratively and have made a 
strong partnership against the terror groups who threaten the citizens 
of this state.
    Thank you.

    Ms. Harman. I would just--let me advise our members that 
each of you will have five minutes for questions, and I'll 
recognize myself first for five minute.
    In my five minutes, let me observe that if Charlie Allen, 
the head of the intelligence division of the Homeland Security 
Department, or Michael Allen the deputy director--or Michael 
Chertoff, the director of the Homeland Security Department were 
here, I think they would have the same reaction I have, which 
is this is exactly how a region, a local--a state and a region 
should organize itself.
    You have the right ideas for how the work should get done.
    The problems you're having are with federal funding and 
connection between the federal government and you, and those 
are things that we need to fix, and I certainly intend to talk 
further to Charlie Allen and to Michael Jackson and to Michael 
Chertoff about this.
    These are things that must be fixed, and if they won't be 
fixed voluntarily, they have to be fixed with legislation, as 
in the case of participation in the NCTC.
    Let me just ask a few questions, and if you could keep your 
answers brief, we can ask more questions.
    General Lowenberg, you mentioned the problem with prison 
radicalization. That is not the direct subject of this hearing, 
but it is directly relevant to terrorist activity.
    This committee held a field hearing in Torrance, California 
in my district where a prison radicalized cell has been 
arrested and is awaiting trial.
    What are the problems here and, briefly, what are you doing 
to make sure that you are aware of them and can prevent and 
disrupt them from becoming life--
    General Lowenberg. Madam Chair, I am well aware from having 
worked with the intelligence director from the California state 
prison system three weeks ago in Monterey, California, that 
California probably has the best assessment of the prison 
radicalization threat.
    We have brought our state Department of Corrections into 
the WAJAC. Our secretary of corrections, Harold Clark, is part 
of the evidence group that met this last week, and so we're 
doing everything we can, quite frankly, to catch up with 
California and New York state who are frankly on the leading 
edge nationally in dealing with this very disturbing 
phenomenon.
    Ms. Harman. Of course I don't mind that comment ``catching 
up with California.'' That's good.
    Chief Kerlikowske, you gave me an insight about the fact 
that the federal center system of information--intelligence 
sharing is based on a Cold War model.
    When we did intelligence reform in 2004, a bill I was very 
involved with, that was our rant against the organization of 
our intelligence community.
    You said it was a 1947 business model and no one can 
possibly operate in a 1947 business model, so we changed it.
    I am very aware that there are problems with clearances at 
the local level and that the FBI and DHS clearances are treated 
differently.
    Could you just give us a short bit of information on the 
record about the problem getting security clearances?
    Chief Kerlikowske. I think one of the suggestions that was 
made by the major city chief's intelligence subcommittee in 
Charlotte was to allow, at one level, some of the background 
work that is now either done by federal agents or is, in fact, 
contracted out to retired federal agents. Why not go ahead and 
let some of these large local agencies do some of the basic 
background and preliminary work, which is so labor intensive 
and so time consuming?
    That actually was not particularly well received by DHS.
    We think it makes sense because we're trusted with 
protecting our communities, and we hire these officers. Why in 
heaven's name shouldn't we be trusted to doing the preliminary 
background data and information that could be helpful to 
getting--to moving that clearance further and faster?
    Ms. Harman. Thank you. I think that's an excellent 
suggestion.
    Finally for Mr. McKay and Chief Batiste. Mr. McKay, thank 
you for your courageous comments about the Linx system and its 
reception at DOJ.
    Surely you know there's a rumor alive in Washington that 
your advocacy for that system may have cost you your job, and I 
know how well regarded you are. I would just like to say that 
if that is true, that is extremely unfortunate.
    This subcommittee has looked at systems like HSNet and LEO 
and HSIN. I won't go into what they all are because my time is 
running out, but I would just like to know from both of you, do 
you think that Linx is a better system?
    Obviously it matters--it is of critical importance how we 
move data and trying to get to some common system.
    Do you think that Linx is the best?
    Mr. McKay. Well, I do. I think that the elements which I've 
set out in my prepared remarks are important.
    What's critical, Madam Chair, I think, is this: The federal 
government cannot command the transfer of law enforcement 
records to it.
    I'm not sure, and I would issue a challenge to members of 
Congress, it's like telling a judge they can't do something, 
but truly trust and cooperation is required because principals 
of federalism would say that those 18,000 law enforcement 
agencies around the country cannot be ordered to transfer their 
records to the federal government.
    What has to happen, I think what we've demonstrated in 
Linx, is that where we own it together--federal, state, and 
local--and are responsible for its administration and its 
security and to make sure that it's not misused and people's 
rights are protected, that is a cooperative governance 
structure that is not offered in any other system, and if 
there's one aspect of a system that is critically important, it 
is the full text records being shared, in essence, voluntarily 
by each participating agency because they know that if they had 
access to each other's data, they could make us safer.
    That is the difference.
    The structures exist in other places, but you will see upon 
analysis that they are not sharing all of their records the way 
we are here.
    Ms. Harman. Thank you. My time is expired, but I want to 
give Chief Batiste the time to answer that question.
    Chief Batiste. Madam Chair, I think I can say with 
confidence in support of all my colleagues across the state and 
region, we truly support what John is remarking with regards to 
the Linx system being a system that serves us well.
    It does allow for independence with regards to pushing our 
information forward, as an agency, for viewing capabilities, 
yet I maintain control of that information.
    Ms. Harman. Thank you, Chief. Thank you all.
    I now recognize our ranking member Sheriff Reichert for 
five minutes of questions.
    Mr. Reichert. Thank you, Madam Chair.
    You've all mentioned relationships, and that was key when 
we started to talk about Linx, and I remember when John showed 
up on the scene and gathered everybody together. I think 
everybody in this panel would agree that it was a breath of 
fresh air, John was, and his energy behind Linx, and the 
sharing of information was welcomed.
    I think it brought us all together, so first of all, I 
would like to say, ``Thank you'' to John and agree with Madam 
Chair's comments on your courage that you show, and I 
appreciate all the efforts that each and every one of you put 
forth to make this community a safer place.
    Sometimes I do miss wearing the uniform. I just thought I 
would share that with everybody.
    Technology is the other thing that we touched on, and the 
Chair asked about the Linx and whether or not it's a great 
system.
    John and I had many conversations about when the sheriff 
officers were going to get involved in this project, and we 
didn't jump until second year, and that trust had to be there.
    The third thing, money.
    So we have relationship, technology, money. All of these 
things have to come together to build a program, to build a 
community, to build this effort around Linx, and so now we've 
had the relationships are built, we've had some technology, the 
RAIN system here in Seattle, Linx and other systems that have 
come together from some of the other agencies, and granted the 
money has been lacking, but hopefully we'll be able to work 
together on acquiring more funds for this effort.
    What is the status of Linx right now here in our region?
    Mr. McKay. Linx in this region continues to operate very 
robustly. My understanding is that of the 150 of the something 
over 200 police agencies--I believe that's about right--about 
200 agencies now have signed the agreements.
    I believe that about 70 agencies have data flowing, and 
that's simply a function of having the funds to move that 
forward.
    Of those 70, that consists of the largest agencies, 
including King County sheriff's office, Seattle police 
department, Washington state patrol, and others, so actually, 
in terms of data, huge amounts of data are flowing in the Linx 
system today.
    Nationally, Linx is, I believe, up and running in five 
areas with seven on the boards, up to nine to include the 
Washington capital region and Los Angeles, and that is 
principally--all of that is principally being funded by the 
Naval criminal investigative service who should get, in my 
mind, a huge amount of credit here.
    The technology is simple. It's not the technology.
    The money is important, but it's not the money.
    What is important is the agreement by agencies to actually 
put their data out there and share it with each other.
    Frankly, it's the federal government--it's the law 
enforcement agencies and the federal government that need a 
good stick taken to them to get that done, not a carrot, a 
stick, and they need to put their data in there and share it, 
just as the Washington state patrol, the King County sheriff's 
office, Seattle police department are sharing all of their 
investigative records with the FBI and other federal agencies.
    Mr. Reichert. Another question for you, John. In this 
reluctance to share information, you say overclassification 
plays a part in that.
    Is there a role that that plays?
    Mr. McKay. I think not so much overclassification. For one 
thing, the Linx system is not--it's certified to the secret 
level, but classified data does not reside there, and mostly 
that would be contributed by the FBI, but, quite understood, 
classified data.
    I think the question is whether sensitive--what agencies 
deem to be sensitive information is being screened out mostly 
by federal partners not the state and local agencies.
    Chief, among these, being DEA, and, frankly, the security 
system that we built into Linx could take care of all of that, 
and I think it's a question of individual agencies relying on 
old days of silos and turf and saying, ``Our stuff is too 
important to share with local police officers.''
    That is the wrong--that's the pre-9/11 attitude, and I 
can't believe that we allow it to continue to exist, and 
unfortunately the deputy attorney general of the United States 
issued a memorandum in December of 2006 going right back to 
that standard and letting federal agencies screen their data 
out of the Linx systems.
    Mr. Reichert. Thank you.
    One quick question, Chief Kerlikowske. You mentioned being 
focused on the community, private sector.
    Have you seen a difficulty reaching out to the private 
sector, including them in this--reluctance on their part to 
become involved?
    Chief Kerlikowske. You know, I haven't seen any reluctance 
on their part because I think, as you did in King County, you 
have relationships established with the private sector, 
particularly those that contain the key infrastructure that we 
all know that if something happens, things are not going to 
work well, commerce and banking and on and on, and that's based 
upon the trust, but we also, of course, follow the Los Angeles 
art angel model and the A-cam model of looking at these 
infrastructures and working with them, but they have to be 
assured that liability, and you had mentioned that earlier, is 
not going to attach, and they have to be assured that we are 
going to be as protective of that critical information on how 
that facility can be better protected to make sure that it is, 
in a proprietary way, not released.
    Ms. Harman. The Chair now recognizes the cardinal from 
Washington, Mr. Dicks, for five minutes.
    Mr. Dicks. Thank you Jane for bringing the hearing here.
    Our same group went down to Los Angeles and saw a fusion 
center down there, so we're trying to get a picture of what's 
going on around the country, and I want to commend all of you 
in working together as effectively as you do in trying to 
overcome some of the impediments from the federal side.
    Now, on this question--I think we could change this two-
year limit. I mean, that's a policy matter on these analysts--
funding the analysts.
    I mean, if Congress stepped in and legislated and said, 
``The funding that we provide is available for analysts for 
fusion centers beyond two years,'' I mean, I don't see any 
problem doing that, and that's what you would like us to do.
    Is that not right?
    General Lowenberg. The key, Congressman Dicks, is whether 
the grant money can be used to fund a state FTE as opposed to a 
contractor.
    We recognize that Congress authorizes and appropriates for 
grant program cycles for two or three years, with each fiscal 
year appropriation cycle, but being told what we can expend the 
money for is a limitation.
    As we dealt with Secretary Ridge and now Secretary 
Chertoff, the mantra has always been, ``We would if we could, 
but we can't,'' and our question has been, ``Why can't you,'' 
and it's always been, ``Because OMB and the White House will 
not allow us to expend the money, as a matter of policy, for 
anything other than contract analysts or contact planners,'' 
and so we're left with these temporary hires, and frankly these 
information sharing centers and fusion centers then end up 
being a training ground, if you will, for analysts who just 
leave at the first opportunity to work for a federal agency 
where there's some relative job security, sense of stability 
and future employment.
    Mr. Dicks. John, I want to commend you on this Linx system.
    I remember we talked about this when we were having a 
little difficulty early on, and I think--how did the Navy wind 
up--the Naval criminal investigative--how did they wind up 
being kind of the lead on this?
    Mr. McKay. That's a good question. It was envisioned by the 
FBI, and I was asked by Dale Watson, who then was the executive 
assistant director of the FBI, to lead the effort regionally 
among Washington, Oregon, and Idaho, and then the FBI 
disappeared after their project gateway in St. Louis crashed 
for different reasons, which we avoided out here in Washington 
state.
    I went to Dave Brant, who was the NCIS director, and he 
agreed to run it as a pilot project in Puget Sound mainly 
because of the naval bases in our district, so that's how it 
came to be NCIS, but we felt all along that it should move away 
from the Department of Defense and be taken over by Homeland 
Security and Justice.
    Mr. Dicks. I was impressed to see that Gordon England, who 
is a very outstanding--and who was the deputy at Homeland 
Security was all for this and was urging the Department of 
Justice and the Department of Homeland Security to go forward 
on this, and yet we've had all this resistance from the 
Department of Justice.
    I just want to commend you for what you did here, and I'm 
glad that Linx is still operational here in the state of 
Washington and that you all are working together on this.
    I think that's outstanding.
    I think our committee ought to try to work on this to try 
to convince--at least maybe we can go through Homeland 
Security, that this ought to be a national model, which it was 
on the road to being until McNolty (phonetic) said, ``We can't 
go any further'' in December; is that right?
    Mr. McKay. That's correct, and there was an important 
meeting between Michael Jackson, Gordon England, and Paul 
McNolty in which the outlines of an interdepartmental 
partnership, which is, I think, how this should be run, and 
again, as I said in my opening remarks here, you cannot find 
any organization in the government responsible for building the 
trust systems that we have here, and so if I'm sitting in your 
chair, I'm thinking, ``Well, how is it done?''
    I don't think it can be assigned alone to Homeland Security 
because the justice agencies have most of the federal law 
enforcement data through the FBI and its five agencies.
    I don't think the Department of Defense should own this 
system for reasons that deal with civil liberties and the trust 
of the American people, not that we don't trust DOD, it's just 
that the data there is being kept on American citizens and 
should be overseen by civilians in the course, and I think all 
of us understood that when we built the system here, so the 
pathway to an interdepartmental partnership was there. It has 
not gone forward, and that's above my pay grade as to why 
that's happened.
    Mr. Dicks. Now, I want to make sure I understand this.
    Are we getting the information on people who have been 
convicted of federal crimes in our area?
    Mr. McKay. Some.
    Mr. Dicks. In this system.
    Mr. McKay. Some but not all.
    Mr. Dicks. They screen out some of these--you have all the 
local records, right.
    Mr. McKay. You bet, Congressman Dicks.
    What's happened is the local agencies are contributing all 
of their data into Linx essentially, not internal matters but--
administrative matters, but they're investigative records, and 
the partnership deal that the federal government offered, and I 
know because I was offering it, was, and we will give you the 
FBI's 302s, investigative records, the DEA 6s and the federal 
records, which will help you solve crime in your regions and 
all of us to attack potential terrorism, and that promise has 
now been stopped by the federal government, and it is 
unfathomable to me why that has occurred, other than that no 
one is in charge.
    Mr. Dicks. All right. Well, we'll go to work on it. Thank 
you very much. I appreciate all of your testimony.
    Mr. Reichert. Chair, allow me just one comment.
    I just wanted to note that last Congress we presented a 
bill that--the language allowed for the full payment of 
analysts, and that bill is still in the hopper, so it's not a 
new problem, but we've also--I want to acknowledge your 
observation that as we've talked with members of Homeland 
Security and the secretary himself, there's been a huge 
reluctance, as you all know, in financing local FTEs.
    I think that's solely being overcome. There's a lot of work 
yet to do on that, and I think if we can go to rule change--
some sort of a policy change route, as the General has 
suggested, and Norm, that would be the route to go, but we 
still have legislation out there too that would push--
    General Lowenberg. Congressman Reichert, if I could just 
respond, we very much appreciate the leadership shown in the 
109th Congress, but the state's homeland security advisor has 
presented this issue and others to Secretary Chertoff, 
Secretary Jackson, and we have talked to Charlie Allen. All of 
that took place on April 17th in Washington DC. We still have 
not seen any policy shift from the agency.
    Ms. Harman. Thank you. This was an excellent panel, and 
this subcommittee will follow up. These are live issues.
    They are very troubling.
    Our perspective, as I said in my opening remarks, is to 
start at the local level, find out what you need and what 
participation would be useful, and then view the federal 
government as your customer, not the other way around.
    Future terrorist acts in America will, to some extent 
anyway, happen in our neighborhoods, and you're the folks who 
understand those neighborhoods, so I want to thank you for four 
pieces of excellent testimony.
    This was a superb panel. We all learned a lot. You're 
excused.
    Ms. Harman. Welcome to all of you. I will introduce you all 
at once, and we will start our testimony, our five-minute 
summaries, with Mr. Hovel, and all of you will turn the little 
clock around so that everybody observes the time limits.
    Our first witness, Richard Hovel, is the senior aviation 
and homeland security advisor to the Boeing Company, a small 
concern that I'm also very familiar with. You have large 
facilities in my district in Los Angeles. Thank you for what 
you do.
    Prior to his tenure with Boeing, Mr. Hovel served as the 
federal security manager for the FAA, aviation security 
operations division at Seatac.
    Mr. Hovel began his law enforcement career with the 
Albuquerque police department, after which he worked for the 
Idaho state police as a state trooper and supervisor and 
criminal investigator.
    Our second witness, Matt Morrison, is the executive 
director of the Pacific northwest economic region, PNWER, a 
public private partnership established in 1991 by statute in 
the states of Alaska, Washington, Idaho, Montana, and Oregon, 
and the western Canadian provinces of British Columbia, 
Alberta, and the Yukon territory.
    For those who don't live here, this is an extremely 
impressive idea.
    As the director of PNWER, he communicates with the state 
and provincial legislatures and coordinates with the working 
groups of PNWER in the area of homeland security.
    Our third witness, Steve Stein is the northwest regional 
coordinator for the homeland security market sector for the 
Pacific Northwest national laboratory.
    Mr. Stein recently completed a large project supporting the 
Department of Homeland Security that was focused on the 
assessment of the Seattle urban area's preparedness to prevent 
and respond to major disasters and the insertion of new 
technologies that would improve the region's level of 
preparedness.
    Finally, our fourth witness, Richard Stevenson, is the 
president and chief operating officer for Clise Properties.
    Your firm was mentioned in earlier testimony, as you know.
    Mr. Stevenson has worked in the real estate and property 
management field for 20 years. He currently serves on the board 
of directors for the downtown emergency services center and the 
Seattle association.
    Without objection, your full statements will be inserted in 
the record.
    I now ask each of you, starting with Mr. Hovel, to 
summarize for five minutes, and the timer will be turned on, 
and it it's right next to Mr. Stein.

 STATEMENT OF RICHARD E. HOVEL, AVIATION SECURITY ADVISOR, THE 
                         BOEING COMPANY

    Mr. Hovel. Madam Chair, honorable members of Congress, it's 
very much appreciated allowing this opportunity to talk with 
you about this vital matter.
    Since the tragic events of September 11th, 2001, and 
consistent with HSPD 5, the national response plan, the 
national infrastructure and protection plan, and the national 
intelligence strategy, there have been increasing strides made 
to integrate the private sector within the public sector 
information sharing framework throughout all levels of 
government.
    As has been mentioned, in excess of 85 percent of this 
nation's critical infrastructure residing within the private 
sector, one can hardly expect the public sector law enforcement 
and intelligence entities to sufficiently insulate industry 
from risks associated with what once was primarily a criminal 
enterprise.
    Understanding and responding to the many interdependencies 
between the various elements of the critical infrastructure may 
be more appropriately and effectively addressed by private 
sector ownership but with support from public sector agencies.
    This is based upon a sound proactive understanding of the 
far reaching damage that a successful attack on critical 
infrastructure could have, and is somewhat contrary to the 
largely reactive nature of traditional law enforcement.
    Because of this, information that has developed regionally 
may have significant impact nationally.
    This was evidenced very recently by the thwarted terror 
plot at Fort Dix New Jersey.
    To be effective in this arena, industry must have real-time 
access to information through fusion center capabilities in 
order to analyze that which may have a local or broader impact.
    Conversely, federal, state, local law enforcement and 
intelligence entities must have access to very mature 
intelligence capabilities in the private sector.
    The private sector has the ability to effectively acquire, 
interpret, analyze, and disseminate intelligence information 
which may originate from private sector sources.
    Indeed, many companies are authorized to receive, store, 
and communicate classified information by employees already 
holding clearances.
    Public/private sharing of intelligence information, as 
we've all said, is a function of trust, and as we well know, 
all trust is local, which provides the very foundation of the 
fusion center concept.
    Capitalizing on the already significant relationships that 
exist between the public and private sectors here in the 
northwest and to mitigate the ever-changing risk, Boeing is in 
the process of assigning an analyst to the Seattle FBI fusion 
center.
    Fortunately the government has put in place a mechanism 
which enables private industry to enter into such 
collaboration, namely the Federal Safety Act.
    Boeing is currently working with the Department of Homeland 
Security in an effort to submit an application for protection 
under that act.
    Hopefully this will be the first of many, many similar 
efforts across the nation that will establish a collaborative 
partnership between public sector and industry and protect our 
critical infrastructure more effectively and expeditiously.
    A communication hub, around which the fusion concept could 
be built would use the collaborative efforts of both the 
private and public sectors, working in conjunction with the 
Pacific Northwest economic region center for regional disaster 
resilience have formed the community-focused northwest warning 
and response network, otherwise known as NWWARN.
    While the genesis of this was based upon the emergency 
response network model implemented in the southwest, NWWARN is 
a much more robust, all hazards, all threats communication 
tool.
    This network provides multidirectional communications 
between the FBI and both public and private interests across 
the five northwestern-most states of Alaska, Montana, Idaho, 
Washington, and Oregon.
    Additionally, we are in formative stages of establishing a 
virtual regional information fusion center pilot project.
    It would provide two-way information sharing on a 
multilayered, secure, and very resilient system with analysis 
produced by a team of core resident, local, and state experts 
with virtual analysts from different sectors and disciplines.
    It would be using a largely virtual database to enable 
integration, assessment, and secure tailored dissemination of 
information provided to key stakeholders.
    The analysis would be used for organizational and 
collective decision making in crafting public information.
    The virtual capability will interconnect state, local, 
private sector, now defense, and other stakeholder capabilities 
while avoiding duplication of effort, proliferation of 
analytical products, and competition for hard-to-find 
analytical staff resources.
    It will be--it will enable federal authorities to have a 
single focal point to efficiently and securely provide 
intelligence and other sensitive information to a wide range of 
customers.
    This pilot would provide a model which could be customized 
by states and localities across the nation.
    The overarching purpose of these collective efforts is to 
better identify infrastructure interdependencies and 
preparedness gaps.
    They focus emphasis on identifying asset criticality, 
managing disasters, and furthering the trust factor between key 
stakeholders while moving law enforcement and intelligence 
communities beyond the ``need to share'' philosophy toward a 
``responsibility to provide'' model.
    I thank you very much for the opportunity again, for the 
time and effort and the support you all are providing in this 
hearing.
    Ms. Harman. Thank you, Mr. Hovel.
    [The statement of Mr. Hovel follows:]

                 Prepared Statement of Richard E. Hovel

    Since the tragic events of September 11, 2001, and consistent with 
HSPD-5, the National Response Plan, National Infrastructure Protection 
Plan and the National Intelligence Strategy, there have been increasing 
strides made to integrate the private sector within the public sector 
information sharing framework throughout all levels of government.
    With approximately 87 percent of this nation's critical 
infrastructure residing within the private sector, one can hardly 
expect public sector law enforcement and intelligence entities to 
sufficiently insulate industry from risk associated with what was once 
[primarily] ``criminal enterprise''. Understanding and responding to 
the many inter-dependencies between the various elements of the 
critical infrastructure may be more appropriately and effectively 
addressed by private sector ownership, with support from public sector 
agencies. This is based upon a sound pro-active understanding of the 
far-reaching damage that a successful attack on critical infrastructure 
could have--and is somewhat contrary to the largely reactive nature of 
traditional law enforcement.
    Because of this, information that is developed regionally may have 
significant impact nationally. This was evidenced by the recently 
thwarted terror plot at Fort Dix. To be effective in this arena, 
industry must have real-time access to information through Fusion 
Center capabilities, in order to analyze that which may have a local or 
broader impact. Conversely, federal, state and local government, law 
enforcement and intelligence entities must have access to mature 
intelligence capabilities in the private sector.
    The private sector has the ability to effectively acquire, 
interpret, analyze and disseminate intelligence information--which may 
originate from private sector sources. In deed, many companies are 
authorized to receive, store and communicate classified information by 
employees already holding clearances. Public/private sharing of 
intelligence information is a function of ``trust'' and as we well 
know, ``all trust is local'' which provides the very foundation for the 
Fusion Center concept.
    Capitalizing on the already significant relationships that exist 
between the public and private sectors in the Northwest and to mitigate 
ever-changing risk, Boeing is in the process of assigning an analyst to 
the Seattle FBI Fusion Center. Fortunately, the federal government has 
put in place a mechanism which enables private industry to enter into 
such collaboration, namely, the federal SAFETY Act (``Support Anti-
terrorism by Fostering Effective Technologies Act of 2002.'') Boeing is 
currently working with the Department of Homeland Security in an effort 
to submit an application for protection under the SAFETY Act. 
Hopefully, this will be the first of many similar efforts across the 
nation that will establish a collaborative partnership between the 
public sector and industry, and protect our critical infrastructure 
more effectively and expeditiously.
    A communication hub, around which the fusion concept could be built 
would use the collaborative efforts of both the private and public 
sectors, working in conjunction with the Pacific NW Economic Region 
(PNWER) Center for Regional Disaster Resilience have formed the 
community-focused Northwest Warning and Response Network (NW WARN). 
While the genesis of this was based upon the Emergency Response Network 
(ERN) model implemented in the Southwest, NW WARN is a much more robust 
``all hazards--all threats'' communication tool. This network provides 
multi-directional communications between the FBI and both public and 
private interests across the five Northwestern-most States of Alaska, 
Montana, Idaho, Washington and Oregon.
    Additionally, we are in the formative stages of establishing a 
virtual Regional Information Fusion Center Pilot Project (RIFCPP) that 
would provide two-way information sharing based on a multi-layered 
secure and resilient system with analysis produced by a team of core 
resident local and state experts with virtual analysts from different 
sectors and disciplines. They would be using a largely virtual database 
to enable integration, assessment, and secure, tailored dissemination 
of information provided to key stakeholders.
    This analysis would be used for organizational and collective 
decision-making and crafting public information. This virtual 
capability will interconnect state, local, private sector, defense and 
other stakeholder capabilities while avoiding duplication of effort, 
proliferation of analytical products, and competition for hard-to-find 
analytical staff resources. It will also enable federal authorities to 
have a single focal point to efficiently and securely provide 
intelligence and other sensitive information to a wide range of 
customers. This pilot would provide a model which could be customized 
by states and localities across the nation.
    The overarching purpose of these collective efforts is to better 
identify infrastructure interdependencies and preparedness gaps. They 
focus emphasis on identifying asset criticality, managing disasters and 
furthering the ``trust-factor'' between key stakeholders while moving 
the law enforcement and intelligence communities beyond the ``need to 
share'' philosophy toward a ``responsibility to provide'' model.
    Thank you for your time and support in finding solutions to take 
advantage of both public and private sector capabilities.

    Ms. Harman. Mr. Morrison.

    STATEMENT OF MATT MORRISON, EXECUTIVE DIRECTOR, PACIFIC 
                   NORTHWEST ECONOMIC REGION

    Mr. Morrison. Thank you, Madam Chair.
    I'm very happy to be here.
    I think the title of this hearing is--exactly cuts to the 
centerpiece of what we need in this country in order to be 
better prepared for both manmade and natural hazards.
    I would say that our work has been largely with the 
critical infrastructures and trying to understand regional 
disaster resilience, and the information sharing piece is a 
vital cornerstone of regional resilience.
    As yet, my experience at DHS has not focused in any 
meaningful way on cross sector challenges to the all-important 
task of building regional resilience.
    We have sector stove-pipes in all of our information 
sharing.
    What I call the resilience tautology is: Resilient assets 
and infrastructures require resilient regions; resiliency 
requires understanding which assets are critical in any 
specific scenario; understanding criticality depends upon 
understanding the interdependencies between and among our 
critical infrastructures; interdependencies remain undiscovered 
in stove-piped sector specific planning; and understanding 
interdependencies require cross sector information sharing; and 
cross sector and public/private information sharing requires 
creation of an environment of trust where stakeholders feel 
safe to share their vulnerabilities with each and other and 
with first responders and government.
    Comprehensive planning for resiliency cannot be done 
without having all the key stakeholders together sharing in a 
trusted environment.
    That's what we're missing.
    This process cannot be done by government or the private 
sector alone but only in a trusted partnership.
    So our work--I mean, it's been amazing.
    The HSIN you mentioned. You know, we--before there was a 
Homeland Security Department we met with the office--the White 
House Office of Homeland Security.
    They came out and endorsed that we could be a pilot at HSIN 
CI, it was called.
    We built 200 vetted professionals throughout the private 
sector, throughout the region. They promised us many times that 
Canada could be a part of it, but that never happened, but last 
month they just wrote a letter to everyone and said, ``Sorry. 
We're closing it down.''
    This was shocking to me.
    I mean, when really it's--the real asset here is trust, and 
you build that with stakeholders, key stakeholders, so it's 
been an unbelievable experience in trying to just develop an 
opportunity for us to share critical information between the 
silos, and here we have a real great test bed.
    I mean, the--we get it out here. We've really done the 
work. We've had all these exercises. We've looked at 
earthquakes to cyber terrorism to pandemic flu and had all 17 
infrastructure sectors from the whole region working together.
    It's wonderful, and what we lack is this--there's such a 
control--DHS just wants to control everything, and they 
wouldn't let us share with each other, which is really the 
ultimate goal of having resilience, and it's not a technology 
issue.
    I think it was mentioned very nicely on the first panel 
that we can do this if we'll just be allowed to do it, and so 
of course since they shut down what we were working on with 
NWWARN, we still have the board and all the people, and we're 
building a local model, but it would behoove the government to 
be listening to the traffic between the utilities and the water 
systems and law enforcement because we all need to know this 
information, so we set up a thing with gatekeepers and--you 
know, we've worked out the requirements for the last four 
years.
    I guess I want to say that I do think it is the 
responsibility of the federal government to find a way to 
incentivise and fund and to--the startup and technical support 
to develop regional public/private partnerships in communities 
and states addressing regional resiliency, public/private 
information sharing, and critical infrastructure security.
    I think this could be done by a competitive programming 
providing even as little as $250,000 seed money for interested 
states and regions to develop something like what we've done 
here, which is so doable.
    I would like to suggest that you use this region as a test 
bed to work with regional stakeholders to develop solutions for 
critical challenges that we all face.
    I'm happy to say that with the support of the committee, 
there has been support from the department of the Navy, from 
DTRA, the defense threat reduction agency--is working on a 
project here because of the stakeholder collaboration, and I 
think that there's great opportunities.
    I would say that federal support for technical assistance 
and encouragement is essential to spearhead, develop, and 
initially sustain cross sector collaboration to identify needs 
and cost effective solutions, activities and pilot projects to 
meet homeland security and disaster resilience challenge.
    The area of information sharing is absolutely vital to move 
forward with the support for developing a regional information 
fusion center that incorporates these critical infrastructure 
private sector opportunities, both analytical capabilities, 
that we see it as a virtual center that would allow this kind 
of communication.
    In my formal remarks there is a more detailed explanation 
of a pilot that we feel could be a great model for the nation.
    Ms. Harman. Thank you very much, Mr. Morrison.
    [The statement of Mr. Morrison follows:]

                  Prepared Statement of Matt Morrison

    Mr. Chairman and Members of the Committee,
    I commend you for the title of today's Seattle Field Hearing: 
``Building a Partnership Strategy: Improving Information Sharing with 
State & Local Law Enforcement and the Private Sector''.
    This is exactly the right topic to be addressing as it cuts to the 
centerpiece of how this nation needs to be and can be better prepared 
to face the wide range of natural and man-made hazards with a 
comprehensive system of systems approach to preparedness and the 
mitigation of vulnerabilities in our communities.
    Since 9-11 there has been a great deal of focus on physical 
protection, and infrastructure sector specific plans. As we all saw 
this week, Secretary Chertoff announced the Sector Reports under the 
National Infrastructure Protection Plan have finally been released.
    While it has been a positive step to increase the security of our 
infrastructures to terrorist attacks, as we saw with Hurricane Katrina, 
there is a pressing need to focus on cross-sector cooperation, 
coordination and information sharing to achieve regional disaster 
resilience. As yet, DHS has not focused in any meaningful way on cross-
sector challenges to the all- important task of building regional 
resilience. Infrastructures and essential service providers in a region 
are tightly interdependent and subject to cascading failures that can 
incapacitate entire communities. What this means is that a utility or 
other service provider may have the best security possible and still 
have its operations or business practices damaged or disrupted.
    Resilient regions are able to bounce back from any kind of disaster 
with limited impacts on public health and safety, the economy, and 
national security. If we want to have `Resilience' from either a 
natural hazards or a terrorist attack we must be able to understand the 
vulnerabilities caused by regional interdependencies, what assets and 
facilities are truly critical, and determine cost-effective ways based 
on risk to prevent or mitigate these vulnerabilities. The only way to 
gain this understanding is through cross-sector partnerships that 
foster local trust among all the key stakeholders that have roles or 
vested interests in providing critical products and services or which 
have emergency preparedness and management responsibilities. This is a 
large number of organizations--all levels of government, private 
sector, non-profits, academic and research organizations and community 
institutions.
    What I have just described is what we call the `Resilience 
Tautology'. To state it simply,
        <bullet> Resilient assets and infrastructures require resilient 
        regions
        <bullet> Resiliency requires understanding which assets are 
        critical in any specific scenario
        <bullet> Understanding criticality depends upon understanding 
        the interdependencies between and among critical 
        infrastructures (85% of which are privately owned). Criticality 
        is dynamic and changes during an incident, often in 
        unanticipated ways
        <bullet> Interdependencies remain undiscovered in stove-piped 
        sector specific planning
        <bullet> Understanding interdependencies require cross sector 
        information sharing
        <bullet> Cross sector and public/private information sharing 
        requires the creation of an environment of trust where 
        stakeholders feel `safe' to share their vulnerabilities with 
        each other and with first responders and government
    To emphasize, comprehensive planning for resiliency cannot be done 
without having all the key stakeholders together--sharing in a trusted 
environment--which provides a value added resource to each and all of 
them. Regional Resilience requires that procedures and protocols for 
information sharing be worked out in advance of any incident, and that 
stakeholders work together to mitigate vulnerabilities and address 
shortfalls in a consistent framework within a public private 
partnership. This process cannot be done by the government or the 
private sector alone, but only in a trusted partnership with all key 
stakeholders in a community.

PNWER's Long Role in Fostering Regional Infrastructure Security and 
Disaster Resilience
    PNWER has been working since the September 1, 2001 attacks to 
develop ways and avenues for information sharing among the public and 
private sectors and other stakeholders through outreach, developing and 
conducting workshops, exercises, interdependency forums, pilot projects 
and leading/facilitating Partnership activities, including regular 
meetings.
    PNWER is unique in that it has a statutory mandate from five 
states: Alaska, Washington, Idaho, Oregon, and Montana, as well as the 
western Canadian provinces of British Columbia, Alberta, and the Yukon. 
PNWER's board is made up of elected state and provincial legislators, 
the Governors and Premiers of all jurisdictions, and Industry leaders 
in the major industries in the bi-national region. Our focus is the 
economy of the region, and the safety and quality of life for all 
citizens. After September 11, our governing board was very concerned 
about the safety of our communities, as well as safeguarding against 
the potential threats to our economy. In consultation with all 
Governors and Premiers, it was agreed that the one area that was not 
being fully addressed was the interface between private infrastructures 
and government. It was this gap that PNWER's Center for Disaster 
Resilience was launched to address.
    Throughout the winter of 2002, the Pacific Northwest Partnership 
for Regional Infrastructure Security created by PNWER began preparation 
for the first multi-sector, multi-jurisdiction, cross border exercise 
focused on critical infrastructure interdependencies called Blue 
Cascades. This unprecedented exercise was the first in a series and was 
held outside of Portland, OR in June 2002 and was attended by more than 
200 representatives from all eight jurisdictions in the PNWER region. 
The exercise was based on a terrorist attack on some of the Bonneville 
Power Administration's important assets, bringing down much of the 
northwest power grid for weeks to months. The exercise focused on 
cascading impacts involving all critical infrastructure sectors, as 
well as law enforcement. It was eye-opening to all participants
    After Blue Cascades I, We continued to have quarterly meetings of 
the Partnership, and held an Action Planning meeting to address 
shortfalls identified in the exercise. This process led to a regional 
Action Plan comprised of a number of recommended initiatives, some of 
which have been accomplished and some which are ongoing. The most 
notable finding from the exercise was the high priority all 
stakeholders placed on the need for a regional information sharing 
mechanism for all key stakeholders. We took this identified need to the 
then Whitehouse Office of Homeland Security--CIO Steve Cooper, and Col. 
Bob Stephan. In the spring of 2003 we hosted a meeting with the Seattle 
FBI to establish a pilot for the northwest which became the NorthWest 
Warning, Alert, and Response Network (NW WARN.GOV).
    NW WARN developed a public--private board of key stakeholders, and 
a gatekeeper community of over 100 key leaders in all 17 
infrastructures. We petitioned to become a pilot project in a new 
program DHS was launching based on the Dallas, TX Emergency Response 
Network (ERN), which was a largely law enforcement-focused model out of 
the Dallas FBI. After much delay, DHS agreed to let us be part of the 
new pilot, which became known as HSIN-Critical Infrastructure or HSIN-
CI.
    Over the past four years, we have worked to build the membership of 
this information sharing system to over 2,000 vetted key stakeholders 
in our region. We developed a handbook, detailed requirements for 
information sharing among sectors, but never received the support we 
needed from DHS for implementation. Instead, Last month, DHS 
discontinued the program and sent a letter to all 2000 professionals to 
announce the cancellation. Our NW WARN Board nonetheless has continued 
to meet, and we are determined to build the functionality into the 
system that we have always wanted to be able to share critical 
information among sectors and with law enforcement and emergency 
management.

Blue Cascades II_focus on Cyber Systems
    Key stakeholders elected to develop a second regional 
interdependencies exercise with PNWER's help the following year. Blue 
Cascades II was again a grassroots effort to address an issue that the 
first exercise had left out--cyber vulnerabilities and the gap between 
physical and cyber preparedness. A Scenario Design Team, made up of 
over 30 organizations, labored over six months developing the scenario, 
which brought out the importance of cyber systems and information 
security.
    The process of bringing private sector key individuals, who live 
and breathe the vulnerabilities of their systems, together with law 
enforcement and emergency management was incredible. ,e had every 
participant sign a non-disclosure agreement to participate in the 
exercise. For many first responders, it was the first time they 
realized just how the communications systems they relied upon could be 
compromised by a cyber attack that could leave them essentially `in the 
dark' and unable to communicate.
    The exercise led our state Homeland Security Director to state that 
were it not for the exercise, he would not have known about what he 
considered one of the top five vulnerabilities in the state--pointing 
out that both DOD and DHS had missed listing this particular issue on 
their state-wide assessment, but was brought out by the process of 
stakeholder information sharing during the exercise.

Blue Cascades III_focus on Earthquake Preparedness
    Following Katrina, stakeholders met to discuss what was the 
Northwest's `Katrina'. All agreed that it was the 9 point subduction 
zone earthquake that is anticipated to hit off the coast from British 
Columbia to California sometime in the next 50 years or so. (The last 
one was on Jan. 26, 1700, and records show that it has happened on 
average every 300 years). This exercise was led again by PNWER with 
critical infrastructure stakeholders who wanted to address the long 
term recovery and reconstitution issues after an extreme disaster. It 
was a two day exercise involving over 350 participants.
    Lessons Learned for Information Sharing. While previous Blue 
Cascades exercises demonstrated the need for interoperable 
communications, in BLUE CASCADES III at issue was the impact of the 
loss of telecommunications and critical IT systems and how these 
systems and particular emergency communications could be made more 
resilient (able to withstand a subduction zone quake and expeditiously 
recover with minimal damage). Some participants pointed to mitigation 
measures, including building more systems redundancy and developing 
alternative, mobile, and easily deployable wireless-based 
communications. There was need for ``situational awareness''--knowledge 
of what was happening throughout the region--as the disaster unfolded, 
to enable optimal decision-making on response (e.g., dispatching 
personnel and other resources where needed, prioritizing service 
restoration, determining evacuations routes and sheltering locations, 
etc.). Private sector and other non-government organizations emphasized 
the need for their inclusion in regional preparedness planning, not 
just with the state or provinces, but with municipalities. One water 
systems representative stated that he would like to hear from 
government less of ``I got you covered--don't worry'' and have more 
cooperation. An energy official noted that ``cooperation is a two-way 
street and public and private sector representatives must be willing to 
meet and participate in the many infrastructure and planning 
initiatives currently underway, and not just at the exercises that come 
along every now and again.'' A telecommunications representative 
reflected sentiments of other participants that companies are reluctant 
to share information directly with government. Through participating in 
``lots of exercises'', however, they can determine what information 
they need and what needs to be shared. As one participant put it, 
``Trust relationships are paramount in creating an environment where it 
is felt that information can be shared safely, and in confidence.'' A 
power company official cited the need to know what the critical loads 
are for the other sectors and that without this knowledge it would be 
difficult to establish restoration priorities. Non-electric sectors 
wanted to learn more about how power is capable of being restored and 
work with utilities to make modifications to their systems so 
restoration of power to critical infrastructure can be accomplished 
quicker.
    The Blue Cascades III scenario of an earthquake--an unexpected act 
of nature--precluded the need for participants to address alert and 
warning in the Puget Sound Region through NWWARN. A major issue, 
however, was the tsunami warning system. Participants questioned 
whether the many thousands of individuals along the coast from British 
Columbia to San Francisco would have ample warning time to reach higher 
ground, or even receive a warning given the widespread regional power 
outage and telecommunications failures generated by the earthquake. On 
response or recovery/restoration issues, it was unclear in the exercise 
how decisions would be made on trade-offs that needed to be made within 
a short time frame. An example was the issue of whether to use scarce 
water for putting out the fires from gas leaks and pipe ruptures or to 
save it for human consumption. Moreover, organizations had no way to 
gain information on what resources were available. For example, 
Cingular noted that it has ``loaner'' cell phones, portable cell phone 
sites, and cellular phones that plug into laptop computers to create 
internet connectivity. The federal government was said to be working on 
a process to channel private sector assistance to government 
authorities in a crisis.
    There was much discussion in Blue Cascades III on priorities 
regarding service restoration in an environment when there would be 
great demand and competition for being towards the top of the 
prioritization list. Some participants pointed out that states, 
localities, and utilities had already established priority lists, and 
these should be followed. Other participants, such as the Postal 
Service, expressed concern that they were far down on the list and 
would not gain services for ``some period of time''. Still others noted 
that priority restoration should be flexible depending on need. At the 
same time, most participants appeared to understand that in a major 
disaster priority lists would likely ``go out the window'', and that 
infrastructure interdependencies should play a role in which services 
were restored and in what sequence. As one participant put it, 
``priorities are different depending upon where you sit.'' In addition, 
there was also some discussion related to what is most critical. 
Participants questioned whether is it the water supply system, 
hospital, transportation, food and agriculture operation, or life 
safety such as emergency services. As an electric power representative 
observed, ``understanding what ``critical load'' is will help establish 
restoration priorities.''

Blue Cascades IV--Pandemic Preparedness and Critical Infrastructures
    Blue Cascade IV held in January of this year focused on impacts on 
critical infrastructures and essential service providers from a 
Pandemic Influenza attack. We included the excellent experience of the 
Ontario Emergency Management director who had handled the SARS epidemic 
in Canada, and looked again at the interdependencies of our critical 
infrastructures and how there might be cascading impacts due to 
workforce shortages. It was evident that more needs to be communicated 
to private sector critical infrastructures, and that HHS and DHS need 
to be better coordinated for incident management in a Pandemic.
    We were fortunate to have the HHS Director of Critical 
Infrastructure Protection, Dr. Tom Sizemore for a planning session for 
the exercise and have the Regional Director for HHS participate in the 
event..
    Again, it was clear that information sharing among critical 
infrastructures, government, and public health agencies was absolutely 
vital, and not being well addressed. Our region has some of the leading 
private sector businesses who have done landmark work in Pandemic 
preparedness and were willing to share their efforts with their peers. 
Boeing, Microsoft, Washington Mutual, Puget Sound Energy, Starbucks, 
Bonneville Power Administration are some of the leading companies in 
this area in the world. We are in the process of developing an Action 
Plan based on the lessons learned from the most recent exercises that 
can become part of a regional pandemic preparedness strategy.

Recommendations:
    The following are based on PNWER's long experience of working with 
stakeholders to develop and implement regional disaster preparedness 
initiatives.
    The Federal Government should fund the start up and provide 
technical support to develop regional public/private partnerships in 
communities and states addressing regional resiliency, public/private 
information sharing, and critical infrastructure security. This could 
be done by a competitive program providing up to $250K to allow seed 
money for interested states and regions to move forward and develop an 
ongoing process to build trust and develop awareness among key 
stakeholders of public and private infrastructures on vulnerabilities 
and mitigation measures associated with regional interdependencies.
    The eight jurisdiction PNWER region is demonstrably ahead of the 
nation in building cross-sector trust among regional stakeholders to 
foster disaster resilience. DHS, the Department of Defense, and other 
federal agencies can use the PNWER region as a test-bed to work with 
regional stakeholders to develop solutions for the critical challenges 
that face the nation today--including developing a model regional 
public/private sector, all-hazards information fusion center and the 
protocols and procedures to allow virtual information sharing among all 
critical infrastructures, law enforcement, emergency management, and 
other key stakeholders. PNWER commends certain federal agencies, DHS/ 
Science and Technology Directorate, the Defense Threat Reduction 
Agency, and the U.S. Department of Energy for willingness to provide 
modest support for a few significant projects focusing on 
interdependencies challenges. Much more of this type of support needs 
to be provided to undertake many of the recommended solutions to 
preparedness shortfalls identified in the respective Blue Cascades 
exercises that are enumerated into the Blue Cascades Integrated Action 
Plan.

Summary
    To summarize, in addressing disaster resilience, our focus must be 
not just inside organizations or on sectors but outside the fence, 
cross-sector, grass roots to national level, focus on all threats 
(including aging and deteriorating infrastructures), and all-hazards 
and regional in scope. We must reminder always that all disasters are 
local and that all trust is local.
    We have to also keep in mind the ``Resilience Tautology''--that 
resilient assets and infrastructures require resilient regions; 
regional resilience requires an understanding of infrastructure 
interdependencies and associated vulnerabilities, consequences of 
disruptions under specific scenarios, and risk-based mitigation; and 
that regional risk assessment and management requires collaboration and 
information-sharing among key stakeholders, which includes regional DOD 
assets.
    Lastly, federal support--funds and technical assistance and 
encouragement--is essential to spearhead, develop, and initially 
sustain cross-sector collaboration to identify needs and cost-effective 
solutions--activities and pilot projects--to meet homeland security and 
disaster resilience challenges. In the area of information sharing, it 
is important to move forward with support for developing a regional 
information fusion center that incorporates the private sector that can 
be a model for the nation. Following is a description of this essential 
pilot project for which PNWER has been tasked to set up and facilitate 
a Task Force to develop.
----------

Attachment 1

             Northwest Warning, Alert and Response Network

    2007
NWWARN Regional
Governnance Board*

Gennie Thomspon
NWARN President

Brandon Hardenbrook
Pacific Northwest Economic
Region; NWWARN Vice
President

Hal Cchlomann
Washington Association of
Sewer and Water Districts;
NWWARN Secretary

Marty Prewett
FBI, Seattle
NWWARN Regional Manager

Joe Huden
City of Everett

Mary Robinson,
Puget Sound Energy

Director
King County OEM

Bryant Harrison
FEMA Region X

Dick Hoval
Boeing

Bill Cooper
Microsoft

Scott Heinz
WA Military Department

Kevin Zeller
WA State Patrol

Rod Hilden
Port of Seattle

Paul Schieck
Seattle Mariners

Paul McIntyre
Alerwood Sewer & Water

* Partial List
----------------
TO: MAJOR GENERAL LOWENBERG, WA ADJUTANT GENERAL

FROM: NWWARN REGIONAL GOVERNANCE BOARD

1SUBJECT: NORTHWEST WARNING, ALERT AND RESPONSE NETWORK

DATE: MAY 15, 2007

Dear General Lowenberg,
    Our officers wanted to update you on all the changes occurring with 
NWWARN and appreciate the continued interest and support of you and 
your staff. These changes have been very challenging and will 
ultimately all be very beneficial.
    NWWARN was designed and developed locally about five years ago with 
the assistance of the FBI, Pacific Northwest Economic Region (PNWER), 
and regional private/public critical infrastructure leaders. Along with 
similar information sharing networks in other geographic regions, we 
all became the pilot for DHS' goal of creating a national private/
public information sharing network. We were collectively known as the 
Homeland Security Information Network--Critical Infrastructure (HSIN-
CI).
    This DHS goal was met in 2006 and a GAO analysis of all the DHS 
HSIN programs stated that HSIN-CI was the only successful program due 
in large part to its extensive membership of local decision makers 
across all private and public critical infrastructures. However, DHS 
then switched to a new technology source that could not support the 
system. This resulted in the loss of our national and regional 
websites.
    We understand the need to be regionally owned, controlled and 
managed to ensure our continued existence and to better address our 
region's issues and needs, such as the 2010 Olympics security, PNWER 
and the Pacific Northwest Emergency Management Agreement (PNEMA). We 
will be independent but continue our close relationships with L/S/F 
government agencies, jurisdictions, and all private and public 
infrastructures.
    Our challenge has been to select a new technology vendor to rebuild 
our system/network, and to obtain initial and ongoing funding. This is 
underway and we expect to have our website restored within 90 days, 
followed by acceptance of new members and full restoration of our 
services.
    The benefits to all of us will be our incorporating new features 
and functions, and expanding our membership to include all of our 
interdependent NW states and provinces. These will be Alaska, Idaho, 
Oregon, Montana, and Washington, plus Alberta, British Columbia and the 
Yukon.
    In closing General, we again want to thank you for your support, 
the support of your staff, and the support of the Washington State 
Military Department and Emergency Management Division. We have worked 
closely with the Washington State Committee on Homeland Security's 
Critical Infrastructure Protection Subcommittee and recognize that 
NWWARN is important to the success of protecting our state's critical 
infrastructure. We have proven our worth to the state and region, and 
once we have our funding issues settled, we will be able to solidify 
our standing and expand.

Respectfully,

Gennie Thompson,
NWWARN President
----------

Attachment 2

                           Pacific NorthWest

                            Economic Region

    Pacific Northwest Center for Regional Disaster Resilience
    The Pacific Northwest Center for Regional Disaster Resilience (RDR 
Center) serves public and private sector organizations and other key 
stakeholders to identify preparedness gaps and implement cost-effective 
prevention and mitigation measures to address them. The RDR Center is 
an integral element of the Pacific NorthWest Economic Region (PNWER), a 
statutory, public/private partnership chartered in 1991 by the 
Northwest states of Alaska, Idaho, Montana, Oregon and Washington and 
the Western Canadian provinces of British Columbia, Alberta, and the 
Yukon Territory. As the implementation manager of PNWER's Homeland 
Security Program, the RDR Center's mission is to improve the ability of 
the Pacific Northwest to protect its critical infrastructures and to 
withstand and recover from all-hazards disasters. The RDR Center does 
this through raising awareness of infrastructure interdependencies, 
providing training and education, and developing tools, technologies, 
and approaches that build on existing capabilities and can be utilized 
across the United States, Canada, and the international community.

Building on Five years of Progress
    The RDR Center's mission is continuing and building upon a long 
legacy of PNWER's work with states, municipalities, and other regions 
to secure interdependent infrastructures and develop disaster 
resilience. The first initiative to address regional infrastructure 
security issues was the creation of The Partnership for Regional 
Infrastructure Security in November, 2001. The Partnership brought key 
private stakeholders representing the critical infrastructures in the 
eight-jurisdiction PNWER region together with the federal, state and 
provincial officials responsible for emergency management and public 
safety. These stakeholders, along with elected officials from each 
state and province, identified opportunities for acting proactively to 
strengthen their infrastructures.
    Since then PNWER has organized with the regional stakeholders three 
critical infrastructure interdependencies exercises over the past four 
years and is now developing a fourth (the Blue Cascades Series). Each 
exercise has been designed by the stakeholders, reflected regional 
concerns, and produced an Action Plan of projects and activities to 
address lessons learned. Blue Cascades I, held in Portland, Oregon in 
June 2002, was conducted under the auspices of the newly created 
Pacific Northwest Partnership for Regional Infrastructure Security and 
sponsored by the U.S. Department of the Navy's Critical Infrastructure 
Protection Office, FEMA Region 10, and the Canadian federal government. 
The exercise centered on raising awareness of interconnections among 
the region's critical infrastructures and resulting vulnerabilities 
associated with largely physical attacks and disruptions. Blue Cascades 
II, held in Seattle in September 2004, was sponsored by King County, 
the U.S. Department of Homeland Security's National Cyber Security 
Division, Puget Sound Energy, Microsoft, and TransCanada. Blue Cascades 
II centered on cyber events to meet stakeholder needs to learn more 
about cyber threats, disruptions, and impacts. Blue Cascades III, held 
in Bellevue in March 2006, was supported by the U.S. Department of 
Homeland Security, Navy Region NW, King County, Microsoft, CH\2\M HILL, 
Cingular Wireless, Puget Sound Energy, BPA and CTC. Blue Cascades III 
focused on the response, recovery and restoration after a M9 subduction 
zone earthquake. Blue Cascades IV, which focuses on the impact of 
infrastructure interdependencies on pandemic preparedness, is now under 
development and scheduled in January, 2007.
    As a result of these regional initiatives, PNWER has undertaken 
pilot projects with DHS, the Department of Energy and other federal 
entities, including development of a regional alert and warning system 
(NW WARN), a regional energy vulnerability assessment, and an 
interdependencies identification tool for stakeholder use.

RDR Center Today
The RDR Center is building on this extensive foundation of activities 
through:
        <bullet> Creating and fostering cross-sector partnerships 
        focused on infrastructure security and disaster resilience;
        <bullet> Developing and conducting regional infrastructure 
        interdependencies initiatives focused on various threat 
        scenarios that include regional cross-sector/cross discipline 
        workshops and exercises to better understand threats, 
        vulnerabilities, and develop strategies for action to address 
        them;
        <bullet> Developing requirements for stakeholder-validated 
        projects and activities to address readiness gaps and improve 
        regional resilience;
        <bullet> Seeking funding and other resources to support 
        regional pilot projects and other activities and to enable 
        state and local agencies to address regional preparedness 
        needs;
        <bullet> Overseeing the implementation of priority projects and 
        activities in a cost-effective, timely and ethical manner;
        <bullet> Conducting outreach and develop and facilitate 
        seminars, workshops, and targeted exercises to raise awareness 
        and test the level of preparedness.
        <bullet> Communicating stakeholder validated regional disaster 
        resilience recommendations to state and provincial governments 
        and policymakers
        <bullet> Providing information through a dedicated web portal 
        www.pnwer.org/portal/ and other mechanisms about resources on 
        CIP and regional disaster resilience issues, lessons learned, 
        best practices; and on upcoming homeland security, emergency 
        preparedness, and related events. Tools include:
                <bullet> A Document Library that can be searched by 
                infrastructure sector, hazard, threat, and 
                jurisdiction;
                <bullet> An Events Calendar with dates and information 
                on conferences, exercises, and other events concerning 
                disaster resilience and critical infrastructure 
                protection;
                <bullet> A Stakeholders Forum which allows registered 
                users to interact with each other and with a panel of 
                knowledgeable stakeholder representatives.
    Lastly, through its Consortium of multi-disciplinary experts from 
recognized research institutions and technical assistance providers, 
the RDR Center provides a Center of Excellence with access to 
expertise, best practices, and lessons learned from CIP and 
preparedness conferences, workshops, exercises, in addition to other 
useful resources.

RDR Center Structure
    As the program implementation focal point for homeland security and 
disaster resilience for the multi-jurisdiction Pacific NorthWest 
Economic Region, the RDR Center is a non-profit, public-private 
collaborative organization.
    Board of Directors. The RDR Center Board of Directors, comprised of 
state and provincial legislators and distinguished independent experts, 
provides strategic direction and general oversight the Center's 
activities.
    RDR Center Director and Administrative Staff. The Director handles 
operational activities of the Center and ensures effective program 
execution and quality control. The Director determines with PNWER staff 
budgetary /resource requirements and seeks means to fulfill these 
requirements.
    Regional Steering Group. The Steering Group is comprised of the 
chairs of regional and state partnerships/collaborative mechanisms 
within the PNWER eight member jurisdictions. The Steering Group 
prioritizes and determines what activities will be included in the RDR 
Center's programmatic activities, reviews progress on projects, and 
provides recommendations.
    Project Requirements and Oversight Work Groups. Cross-sector, 
multi-disciplinary Work Groups of stakeholder organizations 
representing interested regions are responsible for developing 
requirements for individual projects and monitoring project 
implementation.
    State/Provincial Council. A Council of state and provincial senior 
officials charged with homeland security and disaster resilience 
provides guidance to the Steering Group and the RDR Center Director on 
the types of projects that should be undertaken to build upon and 
improve existing capabilities.
    Federal Advisory Group. Comprised of U.S. and Canadian federal 
agencies with homeland security, public safety and emergency management 
responsibilities, the Advisory Group provides advice and as 
appropriate, technical and policy assistance on program implementation 
challenges that have national implications.
    RDR Center Technical Assistance Consortium. The Consortium is 
comprised of research and technical service provider organizations that 
have expertise in the broad range of Critical Infrastructure Protection 
and disaster resilience needs (national laboratories, academic research 
institutions, contractors/consulting firms). Members of the Consortium, 
based on their capabilities, team to assist state and local 
stakeholders to develop requirements for specific projects and 
activities and provide the technical expertise necessary for program 
implementation.

RDR Center Sources of Support
    Overall support for the RDR Center comes from PNWER member State 
and Provincial dues (which are set by statute), private sector 
partnership members, as well as government programmatic funds and 
grants; foundations, and other contributions.
----------

Attachment 3

                   REGIONAL INFORMATION FUSION CENTER

                             PILOT PROJECT

    Purpose
    The following paper outlines what is required to build on existing 
capabilities for cross-jurisdiction/public-private collaboration and 
information-sharing to develop a state-wide, holistic regional 
information sharing and analysis capability to meet the following broad 
security and disaster resilience needs:
        1. Collection, integration, analysis, and dissemination of all-
        source threat-related information for law enforcement and 
        infrastructure protection;
        2. Understanding regional interdependencies and determining 
        critical infrastructure/key resources (CI/KR) vulnerabilities 
        and risk;
        3. Disaster/incident preparedness and management.
    The pilot project would encompass and leverage various activities 
supported by components of the U.S. Department of Homeland Security 
that currently are underway to improve regional information sharing and 
analysis capabilities, including the Washington Joint Analytic Center 
(WAJAC)) and the developing Seattle/King County fusion center; NWWARN, 
and the Puget Sound Partnership Interdependencies template project. The 
pilot project would also leverage systems and procedures for 
information sharing already developed by DHS, DOD and other entities.
    The end-result would be a state-wide ``virtual'' Regional 
Information Fusion Center (information sharing and analysis capability) 
with protocols/procedures that can cost-effectively provide public, 
private and other key stakeholders with appropriate, secure, resilient, 
two-way interaction at the local, state, and federal (civilian and 
defense) level. This capability would connect and enhance but not 
replace mission-specific state and local emergency management, law 
enforcement, defense, and other systems and mechanisms, including EOCs, 
Special Operations Centers, Law Enforcement Intelligence Operations, 
Dispatch Centers, etc.
    This pilot project would provide a model which could be customized 
by states and localities across the nation.
    Background
    Since the September 11 attacks more than five years ago, acquiring 
information on threats to infrastructures, vulnerabilities, and impacts 
has been a top priority and essential for determining CI/KR criticality 
and risk. At the national level, sector-focused Information Sharing and 
Analysis Centers (ISACs) were established. As understanding grew of 
infrastructure interdependencies and the need for identifying asset 
criticality and managing disasters, regional public-private 
partnerships emerged in some parts of the country. A major objective of 
these partnerships was to facilitate regional information sharing by 
building trust among key stakeholders and cooperatively identifying 
security and preparedness gaps.???
    At the same time, in states and municipalities nationwide, law 
enforcement authorities created information and intelligence sharing 
and analysis mechanisms to focus on threats and crimes. Today there are 
more than three dozen of these information fusion centers in various 
stages of development and reflecting the cultural and jurisdictional 
interests of the areas they serve. Their goal is to develop the 
technologies, procedures, analytic staff and capabilities to integrate 
and assess relevant law enforcement and intelligence information, 
coordinate security measures, and facilitate two-way flow of timely, 
accurate, actionable information on all types of hazards. The focus, 
scope, functions, participation, and organizational structure of these 
centers are evolving as understanding of the requirements increases. A 
series last year of four Information Fusion Center Regional Conferences 
sponsored by Department of Justice with the U.S. DHS for managers of 
state and local Centers identified many issues that remain to be 
resolved. Some of the more important of these issues are:
        <bullet> Expanding the focus of the Centers to cover all 
        threats, all crimes, and all hazards;
        <bullet> Inclusion of critical infrastructures and essential 
        service providers and other key stakeholders with focus on two-
        way information-sharing;
        <bullet> Creating and maintaining regional situational 
        awareness pre and post incident; and
        <bullet> Outreach to communities, including associations 
        serving ethnic and special needs groups.
    A priority issue is developing a virtual capability (i.e., 
procedures, technologies, organizational structure, and supporting 
concept-of-operations) to link information fusion centers and other 
collaborative mechanisms and key stakeholder organizations in a state-
wide or broader regional interoperable network to accommodate diverse 
multi-jurisdiction needs, geographic realities and cultural and 
infrastructure sector interests. This virtual Regional Information 
Fusion Center would have two-way information sharing based on a multi-
layered secure and resilient system with analysis produced by a team of 
core resident local and state experts and virtual analysts from 
different sectors and disciplines using a largely virtual database to 
enable integration, assessment, and secure, tailored dissemination of 
information provided to key stakeholders. This analysis would be used 
for organizational and collective decision-making and crafting public 
information.
    This virtual capability will interconnect state, local, private 
sector and other stakeholder capabilities while avoiding of duplication 
of effort, proliferation of analytical products, and competition for 
scarce analytical staff resources. It will also enable federal 
authorities to have a single focal point for effectively and securely 
providing intelligence and other sensitive information to a wide range 
of ``customers''.

Activities within Washington State that Can Be Leveraged
    Washington State is well ahead of many other regions in the nation 
with an established information fusion center operated by the State 
Patrol and situated in the FBI Building in Seattle. The WAJAC is in the 
beginning stages of bringing in private sector analysts. At the local 
level, King County with surrounding counties have been developing 
regional preparedness plans and working with key stakeholders to 
address vulnerabilities and impacts associated with infrastructure 
interdependencies.
    A public-private Partnership for Regional Infrastructure Security 
has been in existence since 2002. There have been four regional 
interdependencies exercises developed and conducted by the Partnership 
thus far, each focusing on a different type of threat scenario--
physical and cyber attacks/disruptions, natural disasters (subduction 
zone earthquake) and an influenza pandemic. These exercises have 
resulted in recommendations for creation of a Regional Information 
Sharing and Analysis Center (regional ISAC) to enable key stakeholders 
to prepare for and manage disasters from terrorist attacks, natural 
disasters or other causes. In addition, Partnership members are 
currently testing an automated interdependency template developed for 
them by DHS/S&T/CIP and have created an Information Sharing Working 
Group to develop secure information sharing procedures for private 
sector organizations to exchange agreed interdependencies data 
collected internally with the template.
    There is a community-focused alert and warning system, NWWARN, and 
the City of Seattle and King County are looking towards developing an 
information fusion capability to serve local law enforcement needs that 
would include critical infrastructures and essential service providers. 
Various proposals and some work are underway on enhancing these 
existing capabilities. The City of Seattle Police Department and the 
Pacific Northwest Laboratory have been collaborating on technology and 
procedural requirements for a Seattle/King County regional fusion 
center. ESRI is developing a virtual analysis system for use by fusion 
centers. There are plans to enhance WAJAC's collection, analysis, and 
dissemination of information and intelligence to law enforcement and 
non-law enforcement agencies through developing effective Regional 
Intelligence Groups (RIGS) and creating a Threat Early Warning Group 
(TEW) system.

Pilot Project Overall Goal
    The goal of the proposed pilot project is to develop a statewide 
virtual regional cross-sector, cross-jurisdiction, secure, and 
resilient two-way information sharing capability that:
        <bullet> Protects proprietary data;
        <bullet> Utilizes existing procedures and mechanisms;
        <bullet> Focuses on all threats, all crimes, and all-hazards;
        <bullet> Identifies vulnerabilities, security and preparedness 
        gaps, and assesses risk;
        <bullet> Meets local law enforcement needs;
        <bullet> Has a state-wide scope and reaches outside state 
        boundaries and cross-border to address regional 
        interdependencies;
        <bullet> Supports the alert and warning function of NWWARN and 
        incorporates member organizations as appropriate;
        <bullet> Supports Emergency Operations Center Disaster 
        Management Activities;
        <bullet> Undertakes outreach and educates community groups;
        <bullet> Fosters interoperability and standardization;
        <bullet> Provides federal agencies through a single focal point 
        access to state, local, and regional key stakeholders.
Tasks
    The following tasks and subtasks need to be accomplished for a 
Regional Information Fusion Center Pilot Project. Some are already 
underway. Most can be addressed simultaneously Specifics on how to 
accomplish these tasks and subtasks, including a schedule and 
milestones, will be developed by a Regional Information Fusion 
Requirements Task Force comprised of representatives of organizations 
involved in the current information sharing and analysis activities 
noted in the Background Section of this paper and others as 
appropriate. (Duration of project activities is dependent on technical 
expertise/funding available.)
Task 1: Requirements Definition (Six-months duration)
        1.1 Identify local, state, and federal jurisdictional issues 
        and needs and what memorandums of understanding and other 
        agreements are required;
        1.2 Develop framework for a mechanism to integrate funding 
        streams for Fusion Center sustainability;
        1.3 Identify roles and responsibilities and develop decision-
        making process;
        1.4 Determine membership criteria--what critical 
        infrastructures and essential service providers to include and 
        how to develop sector and organizational collaboration 
        arrangements to enable collective information sharing;
        1.5 Identify security and proprietary data protection and 
        control needs and develop/leverage appropriate procedures and 
        systems, e.g., PCII;
        1.6 Develop requirements for creating (or leverage an existing) 
        virtual information sharing system with access based on 
        multiple levels of security that enables stakeholders to 
        provide and receive data virtually (i.e., virtual database, 
        analysis and dissemination);
        1.7 Identify what data (information and intelligence) should be 
        collected, which organizations will provide it and how;
        1.8 Determine the security levels for data required and what 
        security safeguards are required;
        1.9 Ascertain data storage needs--what types of data can be 
        stored, and how and where stored;
        1.10 Determine information assessment needs--customer base, 
        types of analysis required meeting customer requirements, and 
        data and analytic resources necessary;
        1.11 Determine communications and IT security requirements
        1.12 Determine communications and IT resilience needs
        1.13 Determine what analytic tools are needed to identify and 
        assess regional interdependencies and disruption impacts; also 
        for weapons of mass destruction (WMD) detection and impacts 
        analysis, including users of these tools;
        1.14 Develop requirements for a virtual analytic capability 
        (determine qualifications of experts, security requirements, 
        process, and procedures);
        1.15 Determine Pilot Project oversight process and program 
        management;
        1.16 Identify potential sources of funding and how to acquire 
        necessary support.

Task 2. Implementation (multi-year scope--phases and timeframe TBD)
        2.1 Develop a Concept of Operations for the Regional Fusion 
        Center that includes decision making and information sharing 
        protocols and secure dissemination procedures;
        2.2 Develop procedures for providing security clearances to 
        Center staff and key stakeholder personnel as appropriate;
        2.3 Develop training for Fusion Center personnel and analysts 
        (working with DHS/IA);
        2.4 Develop procedures and provide staff training for Community 
        Outreach;
        2.5 Develop Regional Information Fusion Center systems and 
        tools;
        2.5.1 Data collection system;
        2.5.2 Data storage and virtual data system;
        2.5.3 Assessment ``toolset'';

Task 3. Issues Investigation, Test, Evaluation and Validation 
(timeframe TBD)
        3.1 Hold targeted workshops and exercises to further 
        investigate and refine implementation issues and priorities;
        3.2 Test and evaluate the Regional Information Fusion Center 
        through two to three Blue Cascades regional infrastructure 
        interdependencies exercises that have terrorism and regional 
        disaster scenarios.
        3.3 Develop and conduct additional targeted workshops and 
        exercises to evaluate specific Regional Fusion Center 
        capabilities.

    Ms. Harman. Mr. Stein.

 STATEMENT OF STEVEN L. STEIN, SENIOR PROGRAM MANAGER, PACIFIC 
                 NORTHWEST NATIONAL LABORATORY

    Mr. Stein. Thank you Madam Chair, Congressman Reichert, 
Congressman Dicks.
    It is a pleasure to be here representing the Pacific 
Northwest international laboratory.
    I actually find myself probably in the perfect chair 
because I'm in vital agreement with the prior two witnesses.
    The beauty of the position I'm in is that I'm kind of being 
an observer. I'm not really government. I'm not really private 
sector.
    My exposure to this issue has been through the regional 
technology abrasion initiative which is supported by the 
Department of Homeland Security, science and technology side.
    The beauty of that program, in my opinion, is that, as you 
stated earlier, it starts from the ground up.
    The purpose was to meet with the people who live with the 
problems and talk about the challenges before them, and based 
on their expertise and their wisdom, identify the challenges to 
them.
    That's the position I've been in for the last four years in 
this region, and it has truly been an honor and a blessing, and 
I've learned a lot in the process.
    One of the things that was keyed up in that process was 
that prevention and preparedness was a key element in this 
region.
    A lot of money was being put into emergency response, but 
prevention was one of the pieces that wasn't as keenly 
reenforced.
    The law enforcement in the region stepped up and said, ``We 
need to doing something about that,'' and regionally they 
decided to go ahead and move forward with the regional 
community intel center.
    I've had the opportunity to continue to participate in 
that.
    One of the challenges with a regional intel fusion center 
or a fusion center at a state level is that partnership between 
law enforcement, and we've all talked about trust, but also 
that relationship with industry.
    The partnership with industry--I really don't need to talk 
much about that. It's clearly beneficial. It's clearly 
important. The challenge though is who do you bring into the 
room, what's that company that you bring into the room, and 
then what's their obligation and liability.
    What appeared to me through this process is that NWWARN 
actually is a phenomenal vehicle, wasn't created for this 
reason, but it provides, as Matt indicated, that trust in 
network, the vetted partnerships, the vetted participation, a 
secure portal, all of which allow connectivity within the 
infrastructure and between them and law enforcement, if this is 
connected to a fusion center.
    The beauty is that industry doesn't have to sit inside the 
fusion center.
    All of the things that they would through NWWARN that they 
can do, and that information that can be piped into the fusion 
center, and literally run the background--you can run 
information systems over the top of that, you can identify 
commonalities, you can identify correlation, and as you find 
those needles in the haystack, you can then investigate those 
and, as appropriate, feed back through the same channel 
information that's relevant to industry or that sector so that 
they can take the necessary action to both be prepared and 
prevent issues in their infrastructure, so everybody is tuned 
in, everybody's advised, everybody is aware, without having to 
deal with the political issues, and without struggling with the 
timely issues.
    The intelligence is great if it's timely. It doesn't do 
anybody any good if it's not.
    This process allows that all to occur in real-time. It 
provides a two-way flowing of information. It doesn't create 
problems with security. It doesn't disappear and everybody is 
vetted in the system. The trust is there.
    One of the other things that's really, really powerful 
about this, in my opinion, is that it is absolutely scale. You 
can do it in a small jurisdiction. You can use the same 
mechanisms that you would in a very large jurisdiction.
    It provides the opportunity for you then to connect fusion 
centers to fusion centers and create a network across the 
country that is truly robust.
    With that, I would like to thank you and would be delighted 
to answer any questions.
    Ms. Harman. Thank you, Mr. Stein.
    [The statement of Mr. Stein follows:]

                 Prepared Statement of Steven L. Stein

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to share some of my views on information sharing between 
state and local law enforcement and the private sector.

Introduction
    In 2004 Pacific Northwest National Laboratory was asked by the 
Department of Homeland Security, Science and Technology to lead the 
Regional Technology Integration Initiative (RTII) for the Seattle Urban 
Area. In leading this effort I have had the pleasure and honor of 
working with hundreds of professionals in the public and private 
sectors who are committed to public safety and the protection of their 
communities. The first phase of this program was to work with the 
public safety sector and private sector to identify the major 
technology gaps that if met, would significantly improve regional 
preparedness for major disasters whether natural or human induced. One 
of the key findings of this program was that the Seattle Urban Area 
Emergency Management Planners should direct more resources into 
prevention. Regional law enforcement used this platform to pursue the 
development of a Regional Fusion Intelligence Center that would focus 
on intelligence lead, community policing. This effort is being 
coordinated with the state intelligence fusion center.

Regional Intelligence Fusion Center
    At its origin the Regional Intelligence Fusion Center was conceived 
as a partnership. Regional law enforcement recognized that their focus 
on jurisdictional priorities and boundaries was self limiting. They 
also recognized that resource limitations resulted in suboptimal 
intelligence capability. The fundamental question then was how do you 
improve your operations and get the desired results without a 
significant and sustained increase in resources? The answer is to 
partner.
    The vision for this partnership is that it will be a multi-
jurisdictional and multi-disciplinary organization with representatives 
from state, local, federal and tribal partners, all working toward 
common objectives. At a minimum, it will include the regional 
intelligence groups in Pierce, Kitsap, King, and Snohomish Counties, 
the intelligence operation in the Seattle Police Department, and local 
industry. Federal law enforcement agencies and the Washington State 
Fusion Intelligence Center are also envisioned as partners as is the 
Pacific Northwest National Laboratory, Public Health, Fire, Utilities, 
and the private sector.
    Without leadership, an articulation of the challenges that need to 
be overcome, and a critical mass of supporters to articulate and 
improve the concept, this partnership would never have moved forward. 
Although there are, and will continue to be numerous challenges I would 
like to focus my remarks on information sharing with the public/private 
sector.

The Northwest Warning, Alert & Response Network (NWWARN)
    The benefits of information sharing between the public and private 
sector are well recognized. The challenge for any Regional Intelligence 
Fusion Center is not how to build the partnership with the private 
sector but rather, who should that partnership be with and what kind of 
information should be shared? The attributes of an ideal solution 
include:
        <bullet> Trusted network of public/private sector 
        representatives by infrastructure element
        <bullet> Vetting of participating members so only qualifying 
        individuals are allowed to participate
        <bullet> Defined roles and responsibilities for private sector 
        members
        <bullet> Secure communication portal for information sharing
    The Northwest Warning, Alert & Response Network (NWWARN) has all 
these attributes making it a very attractive solution to the challenge 
of information sharing between the public/private sector and law 
enforcement. The NWWARN was established as a pilot project of the 
Department of Homeland Security's Homeland Security Information 
Network--Critical Infrastructure. NWWARN, a collaborative effort 
between government and private sector partners within Washington State, 
has as its goal, to maximize real-time sharing of situational 
information and provide immediate distribution of intelligence to those 
in the field who need to act upon it. Information sharing occurs 
through a secure web portal and within each infrastructure element. 
Members are vetted by knowledgeable individuals within each 
infrastructure element, ensuring the formation of trusted network.
    Although initially established to allow infrastructure elements to 
communicate with one another in an emergency, NWWARN became an 
effective information sharing vehicle for a range of issues. 
Establishing an information sharing partnership between NWWARN and the 
Regional Fusion Intelligence Center would not change the purpose or 
operation of NWWARN. Rather, it enables regional law enforcement to 
collect and analyze the information NWWARN members provide to each 
other on a daily basis. If law enforcement analysis reveals patterns or 
suggests heightened awareness, law enforcement can use the NWWARN 
network and secure portal to immediately share appropriate information 
with the potentially affected infrastructure elements.

Conclusion
    As I mentioned at the beginning, it is a pleasure and an honor to 
be able to work with the law enforcement organizations in the region. 
The vision for a Regional Intelligence Fusion Center in the Seattle 
Urban Area is moving toward reality. The existence of the NWWARN offers 
an ideal conduit to enable information sharing between the public/
private partners and regional law enforcement.

    Ms. Harman. Mr. Stevenson.

  STATEMENT OF RICHARD H. STEVENSON, PRESIDENT AND COO, CLISE 
                        PROPERTIES, INC.

    Mr. Stevenson. Thank you, Madam Chair and committee 
members.
    Good afternoon. I'll be brief. It's Friday afternoon.
    My name is Richard Stevenson. I'm president and chief 
operating officer of Clise Properties, Inc., a 120-year old 
commercial real estate company with approximately 3 million 
square feet of commercial space, mostly located in the downtown 
core of Seattle.
    I'm also a past chair of BOMA, building owners and managers 
association of Seattle and King County, current board member of 
the downtown Seattle association, board member of the housing 
resources group and also the downtown emergency services 
center.
    I've managed commercial property and commercial real estate 
companies in the Seattle area for approximately 27 years.
    Generally speaking, during that time I believe that those 
of us in the industry have formed a very strong relationship 
with local law enforcement and specifically with that of the 
Seattle police department.
    My first real professional interaction with SPD was in or 
around 1991 when businesses located on 1st Avenue near the Pike 
Place Market formed a business improvement area for the 
purposes of managing street issues: Cleaning, pan handling, et 
cetera.
    The then west precinct commander, Captain Clark Kimerer, 
agreed to a formal interaction between our security patrols and 
the west precinct for the purposes of communicating issues 
common to the business improvement area's goals and that of 
Seattle's downtown west precinct.
    This, at the time, was very bold and innovative thinking.
    Since that time we've had a close working relationship with 
the police department as it relates to emergency response, 
sharing of information, and oftentimes on a street level having 
individual officers have access to the buildings for purposes 
of surveillance, occasional access to restrooms for bicycle 
police, and other operational issues.
    I'm here today in front of you because it's my feeling that 
with regard to homeland security, we would prefer to see their 
efforts and resources used to bolster local law enforcement on 
our behalf as opposed to standing alone in potentially 
duplicate service.
    We would hope that in local law enforcement and homeland 
security there would be a type of communication between 
entities needed to provide us with intelligence, financial 
resources, manpower, and technology to provide safety for our 
downtown commercial office buildings and the vitally of the 
urban core as a whole.
    What I mean by this is that I believe the local law 
enforcement, including our relationships with ATF, FBI, and 
others, have provided us a strong and reliable core, and then I 
think their efforts should be furthered buttressed by a federal 
homeland security funding for vital infrastructure improvements 
that are mutually agreed upon by the various parties.
    It would seem to be a mistake for Homeland Security or any 
other governmental agency to go it alone in Seattle when it 
could act as a valuable supporting team member for an existing 
and functional local private relationship.
    The excellent relationship between the downtown business 
community and the Seattle police department has been the result 
of years of collaboration on the real world challenges.
    We worked together for many years at ground level. Our 
relationships have been tested and retested over time.
    The key to our success has been a thorough understanding of 
our respective roles and responsibilities.
    The private sector does not want to take on the role of law 
enforcement. We want to be informed, consulted, and provided 
timely warnings. In return we will lend our support and 
assistance to law enforcement as they perform their duties.
    We have valuable information and insights into the 
strengths and vulnerabilities of the buildings we own and 
manage, and are at the table when public safety and homeland 
security priorities are debated by our elected officials.
    I have every confidence that Chief Kerlikowske and Deputy 
Chief Kimerer will give me the information we need if threats 
are identified, and I believe that they are confident that 
Clise Properties and our colleagues in the downtown business 
community will do everything that is in their power to assist 
the police department.
    This has been a model relationship, and it is only possible 
at the local level because of our frequent and ongoing 
interaction in the course of our daily business.
    Thank you.
    Ms. Harman. Thank you very much.
    [The statement of Mr. Stevenson follows:]

                Prepared Statement of Richard Stevenson

    Good afternoon. My name is Richard Stevenson. I am president and 
chief operating officer of Clise Properties, Inc., a 120 year old 
commercial real estate company, with approximately 3 million square 
feet of commercial space, mostly located in the downtown core in 
Seattle.
    I am also a past chair of the Building Owners and Managers 
Association of Seattle and King County and a current Board member of 
the Downtown Seattle Association, Housing Resources Group, and the 
Downtown Emergency Services Center.
    I have managed commercial property and commercial real estate 
companies in the Seattle area for approximately 27 years. Generally 
speaking, during that time, I believe that those of us in the industry 
have formed a very strong relationship with local law enforcement and 
specifically with those of the Seattle Police Department.
    My first real professional interaction with SPD was in or around 
1991 when businesses located on First Avenue, near Pike Place Market, 
formed a Business Improvement Area for the purposes of managing street 
issues, including cleaning, panhandling. The then West Precinct 
Commander, Capt. Clark Kimerer, agreed to a formal interaction between 
rented security patrols and the West Precinct for the purposes of 
communicating issues common to the business improvement area's goals 
and that of the Seattle's downtown West Precinct. This, at the time, 
was very bold and innovative thinking. Since that time, we have had a 
close working relationship with the Police Department as it relates to 
emergency response, sharing of information, and often times on a street 
level, having individual officers having access to buildings for the 
purposes of surveillance, occasionally access to restrooms to bicycle 
police, and other operational issues.
    I am here today in front of you because it is my feeling that with 
regard to Homeland Security, we would prefer to see their efforts and 
resources used to bolster local law enforcement on our behalf as 
opposed to stand alone and potentially duplicate services. We would 
hope that between local law enforcement and Homeland Security there 
would be the type of communication between entities needed to provide 
us with intelligence, financial resources, manpower, and technology to 
provide safety for our downtown commercial office buildings and the 
vitality of the urban core as a whole.
    What I mean by this is that I believe local law enforcement 
including their relationships with ATF, FBI and others have provided us 
a strong and reliable core and I think their efforts should be further 
buttressed by a federal homeland security funding for vital 
infrastructure improvements that are mutually agreed upon by the 
various parties. It would seem to me a mistake for Homeland Security, 
or any other governmental agency to go it alone in Seattle when it 
could act as valuable support and a team member for an existing and 
functional local public private relationship.
    The excellent relationship between the downtown business community 
and the Seattle Police Department has been the result of years of 
collaboration on real world challenges. We worked together for many 
years at ground level, and our relationships have been tested and 
retested over time. The key to our success has been a thorough 
understanding of our respective roles and responsibilities. The private 
sector does not want to take on the role of law enforcement. We want to 
be informed, consulted and provided timely warnings. In return, we lend 
our support and assistance to law enforcement as they perform their 
duties. We have valuable information and insights into the strengths 
and vulnerabilities of the buildings we own and manage, and are at the 
table when public safety and homeland security priorities are debated 
by our elected officials. I have every confidence that Chief 
Kerlikowske and Deputy Chief Kimerer will give me the information we 
need if threats are identified, and I believe they are confident that 
Clise Properties and our colleagues in the downtown business community 
will do everything within their power to cooperate and assist the 
police department This has been a model relationship, and is only 
possible at the local level because of our frequent and ongoing 
interaction in the course of our daily business.

    Ms. Harman. The last two of you finished in less than two 
minutes. I commend you. You get the gold star.
    As I mentioned, your testimony will be inserted in the 
record in full, and each of us will now ask you five minutes 
worth of questions.
    I'll recognize myself first.
    Mr. Hovel, you mentioned the Fort Dix issue when, I think, 
it was six would-be terrorists were apprehended recently in New 
Jersey and charged with plans for a major attack on Fort Dix.
    As I recall, the first notice to law enforcement came from 
a--I think it was a video store fellow who--or a camera store 
fellow who was asked to do something with a video that these 
fellows had prepared, and that video obviously contained 
material that was very alarming.
    This obviously illustrates a point you've all made, which 
is that the private sector has a lot to contribute here, not 
just to keeping its own facilities safe if it gets the right 
information but keeping the rest of us safe.
    Had that plot not been foiled, obviously there possibly 
could have been a major attack on a U.S. military base.
    I just observe that.
    If you have anything to say about that, please do, but I 
really want to ask a different question.
    Mr. Morrison, your testimony was extremely depressing.
    I have said for years that the dirtiest four-letter word in 
government is spelled T-U-R-F, turf, and I think that for some 
reason, maybe it's the water we drink, people instinctively 
protect power and draw perimeters around themselves--it sounds 
like instinctive animal behavior--and block out others.
    What are the best ways to overcome turf instincts?
    Do we have to legislate and force people to be different? 
Is there some management technique? Do we need different 
people?
    What is it going to take to overcome turf?
    Mr. Morrison. Madam Chair, that's a pretty tough question.
    I think that certainly if--in the local and regional sense 
it's quite possible to do.
    In terms of the dysfunctionality of DHS, I don't know.
    I mean, I just--anyway, it's amazing to me.
    In our pandemic, we're trying to do a comprehensive 
regional pandemic plan and HHS has theirs and DHS has theirs, 
and there's--I mean, it's amazing.
    Ms. Harman. Is it easier at a local and regional level 
because people know each other, live closer to each other.
    Mr. Morrison. Definitely.
    Ms. Harman. There's common geography? What are the clues.
    I'm sure there are some people here, of course nobody in 
this room, who are pretty protective of their own power 
structure and block out others, right?
    Mr. Morrison. Right.
    Ms. Harman. No one in this room, certainly not my 
colleagues.
    It escapes me. I am very frustrated.
    I have been personally involved in the legislation to 
create the Department of Homeland Security, which I agree has 
enormous organizational issues, and to reform our intelligence 
community, which is still a work in progress, and the instinct 
is to build bureaucracies and enact procedures that aren't--
that keep data in one place and systems that are duplicative 
and all the things you've all been testifying to and our first 
panel has too, but I think we need a better approach.
    Legislation by itself doesn't work. Good people try very 
hard, and that doesn't work. The problems are identified over 
and over, and that doesn't work.
    Does anyone else have some ideas?
    Mr. Stein?
    Mr. Stein. I don't want to get myself in trouble.
    It's leadership.
    I mean, there's lots of things obviously, but my 
observation in this community is the reason it works is because 
of the leadership.
    The people that were here before at the earlier panel, 
those gentlemen tell the people that they're working with what 
their objectives are, what their goals are, and they walk their 
talk.
    They re-enforce those behaviors with their peers and with 
their subordinates.
    That leadership translates down.
    Now, at the lower levels, it's far from perfect, but the 
message is loud and clear, and as a result you get a lot more 
cooperation and collaboration, and I am in that kind of unique 
position of not being in any of the camps, so I kind of see it 
in a different way.
    This is where I'll get myself in trouble. In DHS, the 
question I would ask is: Do you have the right leadership in 
the context of people who see that bigger issue, that bigger 
objective, and are really willing to walk the talk to achieve 
those goals?
    I can't answer it, but the observations are what you can 
make.
    Ms. Harman. My time has just expired.
    Does anyone else have a comment?
    Okay. Well, I would just agree with you that any of these 
laws and any of these departments, whatever their legal basis 
is, are in my view about 50 percent structure and 50 percent 
leadership, and I do think leadership is critical.
    It was an ancient Chinese philosopher, Lao Tzu, who said 
the more power you give away, the more power you have, and it 
seems to me certainly the people in Washington have never heard 
of Lao Tzu.
    Let me now yield to five minutes for questions to the 
ranking member, Sheriff Reichert.
    Mr. Reichert. Thank you, Madam Chair.
    Well, turf wars--I've started in the sheriff's office in 
1972, and there have been turf battles since 1972 and still 
today.
    It's the human nature, I guess, that we live with, but it 
does take leadership.
    We had a team of leaders sitting before of us earlier and 
we have a team of leaders sitting before us right now, so we 
know in this community we have the makings of great programs, 
of great systems because we have people here who are interested 
and who are willing to work together.
    So my first question goes to Mr. Hovel and Mr. Stevenson.
    Your two companies, is it unique to your companies, the 
connection and the involvement and the interaction that you 
have with your local police departments and this 
interconnection with not just addressing local crime but the 
whole concept of homeland security or are you reaching out too 
to other companies and building that platform to make it even 
stronger?
    Mr. Hovel. Mr. Congressman, we have done all of those 
things and in the process of reaching out to many other 
companies.
    Obviously not all of them have the luxury of being able to 
participate at the level and in the manner that we are, but 
that being said, because we have that capability, we are not 
going to let the opportunity pass either, but there are many 
ways, as I mentioned one of in my prepared remarks, concerning 
the virtual network, that will go a long way to allowing those 
who really have an interest in participating but otherwise 
don't have the means or the logistics to do so to become an 
integral partner in this entire effort.
    Mr. Stevenson. You know, it was mentioned earlier--in fact, 
Chief Kerlikowske mentioned that one of the outcomes was the 
police association, and I think that that is a perfect example 
of one of the things we've been able to do locally is have 
business leaders, downtown Seattle association, other groups, 
get together, work for the police foundation, raise money.
    We saw a real need.
    I mean, bicycle policemen in Seattle didn't have 
BlackBerrys, and so they would stop somebody on the street and 
couldn't really figure out what to do with them, other than 
call a squad car and I guess run them downtown, and we got 
together the money, we got the BlackBerrys.
    We had this very close working relationship because it's 
very mutually beneficial to us and it's the right thing to do, 
and I think we do it because we're stakeholders and we've got 
skin in the game, and I think they do it because they're great 
people and it's their job and their career and they're 
excellent at it, and it seems to me that the previous question 
that Chairwoman Harmon had was ``Why doesn't it work,'' and I 
would suggest that maybe not everybody has enough skin in the 
game.
    Mr. Reichert. Well, I would think too that not only do you 
attract other businesses but you are also, in assisting the 
police department, the sheriff's office, and other police 
departments, that you have the ability then to reach out to the 
various diverse communities that exist around your businesses 
and the employees that you have within the businesses and get 
them involved, and it really goes back to, and the chief well 
knows this concept, of community policing.
    It really has had to step up to the next level to have an 
impact on, again, that overarching concept of homeland 
security.
    Are either of you--I should have ask the chief this. I'm 
sure he is. Is anyone in this panel aware of the Muslim public 
affairs council?
    So we're involved in that effort in bringing that community 
together and reaching out and further educating our community? 
Good, good. I am glad to hear that. I wasn't quite sure.
    To get back to Matt, it's good to see you. You too, Steve.
    On the issue of the HSIN critical infrastructure, you 
testified it's closed down, and by who?
    Mr. Morrison. By the department.
    They transformed it to--
    Mr. Reichert. By Homeland Security.
    Mr. Morrison. HSIN CS, which is critical sectors, which is 
a stove-piped, one direction only communications system, and it 
doesn't work for what we have in mind.
    Mr. Reichert. I have no further questions.
    I yield.
    Ms. Harman. Thank you.
    Mr. Dicks is now recognized for five minutes.
    Mr. Dicks. Let's stay on that subject again.
    Now, P-N-W-E-R, PNWER, is your big organization, 
multistate, and you're the leader of that operation, right?
    Mr. Morrison. I'm just the executive director. The 
governors--
    Mr. Dicks. Who created NWWARN?
    Mr. Morrison. That was a joint effort between the Seattle 
FBI, PNWER, and our stakeholder group.
    Mr. Dicks. So it's separate from your organization--
    Mr. Morrison. DHS, FBI, and we petitioned to DHS at the 
time to be a--
    Mr. Dicks. And at first they brought you into the fold, 
right.
    Mr. Morrison. That's right. This was 2000--
    Mr. Dicks. And this was based on the Dallas, TX emergency 
response network, ERN, which was largely a law enforcement 
focused model out of the Dallas FBI.
    Mr. Morrison. Right.
    Mr. Dicks. And it was after much delay, isn't that correct, 
that DHS agreed to let you be part of the new model, which 
became known as HSIN critical infrastructure or HISN CI.
    Did this letter that went out to the 2,000 people that were 
involved in this operation, did you know they were going to go 
out or did they just all of a sudden everybody gets this letter 
saying this is being disbanded?
    Mr. Morrison. That's right.
    Mr. Dicks. Is that how it worked.
    Mr. Morrison. That's how it worked.
    Mr. Dicks. Why did they do it?
    Mr. Morrison. I have no idea.
    Mr. Dicks. Have you talked to any of them.
    Mr. Morrison. Yeah, I mean, we have.
    It was a turf battle going on between FBI and DHS, even 
though they're both DHS, but it--
    Mr. Dicks. You know what I would have done? I would have 
called my congressman or your senator or somebody and asked for 
some help.
    Could you do that? Have you asked anybody to help you?
    Mr. Morrison. Oh, yeah.
    I mean, we have, but maybe not as effectively as we could 
have.
    Mr. Dicks. I think these--like your Blue Cascade things, I 
think those--I think we should be holding you up as the model 
for what a regional entity ought to be doing.
    I mean, cyber systems, earthquake preparedness, pandemics, 
these are the kinds of things we need to be doing, a possible 
attack on BPA assets--those are the four, aren't they?
    Mr. Morrison. Yes.
    Mr. Dicks. I mean, I would think that the federal 
government would think this is what a regional group should be 
doing.
    I am really taken aback by this, that this--when did this 
happen?
    When did these 2,000 letters go out?
    Mr. McKay. It was March 21.
    Mr. Dicks. I am certainly, as a member of this committee, 
I'm going to bring up the DHS people and get an explanation for 
this, and any information you can give me about the whole 
thing, I would appreciate it because I don't think this is 
right, and I certainly want to find out why they did this.
    I think--I think you're right, the sector idea, the 
chemical industry, all of these various industry groups, and 
they're supposed to come up with industry recommendations. 
That's been going very tediously as well, by the way. That 
hasn't been an example of moving out and getting something 
done, is it?
    I mean, have you--
    Mr. Morrison. The secretary announced this week that the 
sector specific plans are now released, six months late, but 
they are out this week.
    Mr. Dicks. Has anybody had a chance to look at them? Are 
they any good.
    Mr. Morrison. Well--
    Mr. Dicks. See I like--sector specific, I like the idea of 
a regional approach because that way you know--you've got all 
the various institutions in that region that are effected, and 
I would love to have some of the information on your Blue 
Cascade, these four exercises that you did, because I think 
those are where you really learn where the vulnerabilities are 
and what the problems are, and if you could get that to us, I 
would definitely--I'm sure our committee would like to have 
that to take a look at.
    Mr. Morrison. We would love to testify in Washington about 
them, but I think for me it was with General Lowenberg one time 
who said, ``DOD told me all the vulnerabilities in Washington 
state. DHS told--you know, in five days, but something is in 
the top five was on neither list, and I wouldn't know about it 
if I wasn't at the blue Cascades exercise.''
    Mr. Dicks. Yeah. One of the things that he found out about 
the cyber security issue, right, wasn't that it.
    Mr. Morrison. I'm not going to say anything--
    Mr. Dicks. That was the one, I believe.
    You know, when they first came out, when Homeland Security 
first came out with their critical infrastructure in the state 
of Washington, do you know what two businesses were not on the 
list? Boeing and Microsoft.
    I mean, can you imagine having a list--I took one look at 
this list, and I just said, ``I mean, this cannot be true,'' 
and it was true.
    I don't know. They had a number of recreational places and 
things like that, but they didn't have Boeing and Microsoft on 
the list of critical infrastructure in the state of Washington, 
and we got that straightened out, and--I just--we've got to do 
better, and I appreciate all your testimony today and the work 
that you're all doing, and we'll--all of us here on a 
bipartisan basis, we all work together. This is about finding 
some answers.
    We're going to help you try to find some answers on these 
issues.
    Thank you.
    Ms. Harman. Thank you, Mr. Dicks.
    I want to thank the witnesses for your valuable testimony.
    The lively discussion obviously keys off of what you had to 
tell us. Some of it was very depressing. Some of it is 
inspiring us to action.
    You have in these two members people who want to fix these 
problems and are obviously very proud of their home state, as 
they should be.
    I would just mention to Mr. Dicks, and I think he knows 
this, that a lot of the information about critical 
infrastructure is classified, and there's a place where I 
actually think it ought to be classified.
    We don't need to be telling the bad guys what our major 
vulnerabilities are, but we surely do need to get proper lists 
that reflect the activities of states.
    There was a very foolish list for a long time that had golf 
courses--not that golf courses aren't important, but I don't 
think even golfers would claim--well, my husband would claim 
that they're critical infrastructure, but seriously, I think 
those lists do need to be kept classified, but I think your 
point is very well taken that we have to integrate the list.
    We can't have more stove-pipes--again, that seems to be our 
tendency to have all these separated reports.
    If I were Michael Chertoff, I would perhaps be inspired, 
after hearing this information, to try to infuse his department 
with more coordination and more of a shared mission than it 
has.
    Mr. Dicks. Madam Chairman, they're not helping us very 
much.
    Ms. Harman. And something that we have just decided to do 
is sit down privately with him and go over our top ten list--
some of those top ten have just come out of this hearing--of 
things that we think he needs to work on, and rather than 
making it confrontational, we'll just have it be a 
conversation, and maybe that is a key to getting some of this 
fixed.
    Surely he doesn't bring all of this turf consciousness to 
his job. It's in the woodwork and it was in the woodwork of the 
22 different agencies we thought--we in Congress decided we 
could put into one organization on a quick basis, so that is a 
problem.
    Mr. Reichert has asked me to thank the mayor of the City of 
Bellevue.
    I think I recognized him at the beginning of the hearing, 
but I would like to thank him again for making this facility 
available, and just say to all of you that you are a model, and 
Mr. Dicks is right that we need to bottle you in some fashion 
and make sure that the good work you've done here is encouraged 
and nurtured and spread around the country.
    It does occur to me that places that are well organized, 
like Washington state and the Los Angeles county area, have a 
lot to teach the rest of the country.
    We're not exactly the same as other parts of the country, 
but in terms of coordination in difficult circumstances, we are 
a very good model, and best practices matter.
    We're spending a lot of money on this. I'm sure we could 
spend more, but we need to spend it wiser than we do.
    Let me just finally say that something else that was not 
mentioned today that is critically important to fix is 
interoperable communications, and I worry a lot that should we 
have another major terrorist incident, and I believe we could 
have one at any time, we might have the same meltdown that we 
had in New York and Washington again in some community or some 
set of communities around the country, so there's a lot of work 
to do.
    All three of us care a lot about this, and I would like to 
ask both members if they have any concluding remarks, starting 
with Mr. Reichert.
    Mr. Reichert. Thank you, Madam Chair.
    I just want to end on a real positive note in honor of our 
dear friend Norm.
    We have talked a lot about turf wars. Norm recognized 
those. He and I talked a lot about those as well as most of you 
in this room had the opportunity to work with Norm, but he had 
two favorite things that he would always share with people, and 
maybe some of you in this room even heard him say these words 
to you.
    One was if he would come to you and ask you how you were 
doing, and you said, ``You know, I'm doing okay, Norm,'' he 
would say, ``You know what, we need to move ahead today with a 
smile on our face and an optimistic spirit,'' so we can do that 
when it comes to these problems.
    The second thing, Norm would come to me and now and then we 
would visit and talk, and I remember one day a really 
challenging issue in the sheriff's office, and I told him I had 
this challenge ahead of me, and he said, ``You know, Dave, 
there's no such thing as a challenge, only opportunities,'' so 
today we have opportunities, and we've got a great team.
    We really have some great opportunities to do some great 
things and be true leaders here in our region, so I thank all 
of you for all the hard work that you do to keep our community 
safe.
    I thank the chairwoman for holding this hearing in our 
district, and I again thank Norm for all of his hard work on 
behalf of our country and our community.
    Thank you.
    Ms. Harman. Norm.
    Mr. Dicks. Thank you Jane for coming up and being here 
today with us, and Congressman Reichert and I have been working 
on this.
    Last Congress, the Congressman was chairman, and I told him 
that he got to be chairman in his first term and it only took 
me 16 to become chairman, so--
    Ms. Harman. Some people are slower than others.
    Mr. Dicks. It took me a long time, but we're there, but 
again I want to thank all of you and especially General 
Lowenberg who has been right there at the start of this whole 
thing, and we want to try to help you find some solutions to 
these opportunities, as Congressman Reichert said, and I would 
just say also that Norm Maleng was a friend of mine as well, 
and we were in law school about the same time, and he also 
worked for Senator Magnuson.
    That may not be well remembered, but he was on the staff of 
the Senate commerce committee.
    The senator picked probably one of the outstanding students 
each year--actually it was the faculty that picked--to send 
back for this one-year opportunity to work on the Commerce 
committee, and Norm Maleng was one of those that was selected, 
and we all admired his career and as the prosecuting attorney 
in King County for so many years, and so many important things 
that he accomplished, and we're going to miss him, so thank 
you.
    Ms. Harman. Thank you, and finally let me thank the 
bipartisan staff of the Homeland Security Committee.
    This hearing is adjourned.
    [Whereupon, at 2:58 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
